U.S. DEPARTMENT OF COMMERCE
          Office ofInspector General




        National Institute of 

   Standards and Technology 



          Massachusetts MEP
MEP Award No. 70NANB5H1144
          Final Audit Report No. DEN-18135
                                March 2009



                                               i
                                               i.




            Denver Regional Office of Audits
U.S. Department ofCommerce                                                                           Final Report DEN-18135 

Office ofl 11spector General                                                                                     March2009 




                                                       CONTENTS

Introduction ............................. ........................................................................... 1 


Findings and Recommendations .... .................................................................... 1 


    I. Unallowable Subrecipient Costs.............................................................. 2 


         A.     Association for Manufacturing Excellence ....................................... 3 


         B. Associated Industries of Massachusetts ............................... ........... 5 


          C. Summary of Massachusetts MEP Response .................................... 7 


         D. OIG Comments .................................................................................. 7 


   II. Unallocable Contract Costs ........................ ............................................. 9 


         A. New England Manufacturing Supply Chain Initiative ................. 10 


         B. Machine Operators Skills Training Grant............. .. ...................... 11 


         C. Massachusetts MEP Response ....................................................... 12 


         D. OIG Comments ................................................................................ 12 


   III. Questioned Contractual and Other Direct Costs ............ .... .................. 13 


         A. Summary of Massachusetts MEP Response ............................. ..... 13 


         B. OIG Comments................................................................................ 13 


   IV. Excess Program Income ........................................................... .............. 13 


         A.     Summary of Massachusetts MEP Response .................................. 14 


         B. OIG Comments............................................... ................... .............. 15 


   V. Recommendations .................................................................................. 16 


Summary Results of Financial Audit ............................................... ................ 17 

U.S. Department ofCommerce                                                        Final Report DEN-18135 

Office ofInspector General                                                                    March 2009 




Appendix A: Objectives, Scope, and Methodology................................................. 18 


Appendix B: Summary of Source and Application of Funds............................20 


Appendix C: Summary of Financial/Compliance Audit ...................................21 


Appendix D: Massachusetts MEP Response to Draft Audit Report.. .............. 23 

U.S. Depnrtme11t ofCommerce                                         Final Report DEN-18135 

Office ofInspector General                                                      March 2009 




                                   INTRODUCTION

In September 2005, the National Institute of Standards and Technology (NIST)
awarded Manufacturing Extension Partnership Cooperative Agreement No.
70NANB5H1144 to the Massachusetts Manufacturing Extension Partnership
(MEP) to continue operating an existing MEP center. The center had been operating
for several years under a prior NIST cooperative agreement, with an award period
of February 9, 1998, through June 30, 2005. The September 2005 award approved
funding for the period of July 1 through December 15, 2005. The award was later
amended to extend the award period for 12 months from July 1, 2005, through June
30, 2006. Total estimated project costs for the 12-month award period were
$7,094,313, with the federal government's share not to exceed $2,364,771, or 33
percent.

During the award period of July 1, 2005, through June 30, 2006, Massachusetts
MEP submitted financial reports to NIST claiming total project costs of $9,392,908
and received federal reimbursements totaling $2,364,771.

                          FINDINGS AND RECOMMENDATIONS

We questioned $5,086,998 in costs, as follows:

    • 	 $4, 167,430 claimed for two Massachusetts MEP subrecipients who could not
        provide documentation that their claims were based on actual costs incurred
        under their subawards

       $908,823 (including associated indirect costs) incurred under two
       procurement contracts received by Massachusetts MEP for services that the
       procuring entities used and benefitted by but that did not accomplish NIST
       cooperative agreement objectives

    •	 -      in consultant costs for services provided prior to the July 1, 2005,
       starting date of the award

   • 	 - o f indirect costs associated with the preaward consultant costs

I n addition to questioned costs, we found Massachusetts MEP reported that it had
earned program income exceeding its nonfederal matching share expenditures by
$1,093,495 for the year ended June 30, 2006, but did not request required NIST
approval to carry the undisbursed program income forward to be applied to
nonfederal expenditures in the subsequent award period. Without carry-forward
approval, the undisbursed program income must be used to r educe the federal share
of Massachusetts MEP's expenditures, in accordance with cooperative agreement
U.S. Department of Commerce                                          Fi11al Report DEN-18135 

Office of I11spector General                                                       March 2009 


terms and conditions and federal regulations.

Because of the questioned costs and excess program income, Massachusetts MEP
ultimately received $1,294,073 in excess federal funding.

A summary of the results of our fmancial audit appears on page 17.

On September 20, 2008, Massachusetts MEP provided a written response to our
draft audit report, which we had issued on August 21, 2008. We summarize that
response in the appropriate sections of this report and have attached it in its
entirety (excluding supplemental supporting data) as appendix D.

I. 	Unallowable Subrecipient Costs

Massachusetts MEP's claimed project costs for the period July 1, 2005, through
June 30, 2006, included $4,167,430 for costs incurred by two subrecipients, the
Association for Manufacturing Excellence (AME) and Associated Industries of
Massachusetts (AIM). Massachusetts MEP provided summaries of the costs claimed
for both subrecipients, showing total expenditures of -           for AME, and
-          for AIM, under their respective subawards. These figures total $4,209,781,
but Massachusetts MEP's cost claims to NIST were $4,167,430 for the two
subawards, a difference of $42,351. The MEP's financial records did not indicate a
basis for the difference, which amounts to about 1 percent of total costs claimed for
the two subawards. We used $4,167,430 as the basis for determining questioned
costs.

Neither subrecipient could provide documentation supporting that its claims were
based on actual costs incurred under the Massachusetts MEP's subawards. In fact,
neither subrecipient tracked costs under its subaward for a detailed accounting and
audit trail.

NIST's operating plan guidelines for MEP centers, issued in March 2005, require all
MEP subawards to include the applicable administrative requirements and all
general and special award conditions imposed on the recipient. The administrative
principles contained in 15 CFR Part 14 are incorporated by reference into
Massachusetts MEP's cooperative agreement with NIST. These requirements flow
down to subrecipients, pursuant to 15 CFR Sec. 14.5. Minimum requirements for
recipient and subrecipient accounting systems, as established in 15 CFR Sec. 14.21,
include

        • 	 accurate , current, and complete disclosure of the financial results of each
            federally sponsored project or program (Sec. 14.21(b)(l)),




                                            2

U.S. Department ofCommerce                                          Final Report DEN- 18135 

Office ofInspector General                                                       March2009 


       • 	 comparison of outlays with budget amounts for each award (Sec
           14.2l(b)(4)), and

       • 	 written procedures for determining the reasonableness, allocability, and
           allowability of costs in accordance with applicable cost principles a nd the
           terms a nd conditions of the award (Sec. 14.21(b)(6)).

Neither the AME nor the AIM subaward was in compliance with these
requirements. Rather than tracking and reporting actual costs incurred, both
simply reported large portions of their annual operating expenses as costs under the
subawards. Neither subrecipient provided a subaward budget based on estimated
costs against which it could compare actual outlays. In addition, neither h ad
written procedures in place to determine whether amounts repor ted to
Massachusetts MEP met allowability criteria established by applicable federal cost
principles. Instead, the subrecipients had excluded broad cost categories from
reports to the Massachusetts MEP at the partnership's instruction. The processes
the subrecipients used are described below.

A. 	Association for Manufacturing Excellence

A.ME's outside accountants provided unaudited financial reports for the year ended
June 30, 2006. The reports showed total expenses of -             ' accumulated in 12
broad categories (see table 1). In the two categories noted with the asterisk (*),
"General & Administration" and "Regional Summary," Massachusetts MEP reduced
the total amount reported by removing certain line items not included in its
fina ncial reports to NIST.

 Table 1. Total AME Expenditures for th e Year Ende d June 30, 2006 (Unaudited)

                                                   Included in
                             Category 	                              Amount
                                                   MEP claim?
        General & Administration                       Yes*
        Development                                    Yes
        Annual Conference                              Yes
        Future Year Conference                         No
        IW Conference                                  Yes
        Conference S upport Team                       No
        Canadian Kitchener                             No
        AME Institute                                  Yes
        Target Magazine                                Yes
        Champion Income                                Yes
        International Income                           No
        Regiona l Summary                              Yes*
                              Total
                                                                 --==-­
                                           3

U.S. Department ofCommerce                                         Fi11a/ Report DEN- 18135 

Office ofInspector General                                                       March 2009 


In the "General & Administration" category, Massachusetts MEP excluded
-          in bad debts, bank charges, credit card fees, and depreciation from AME's
expenses for the year ended June 30, 2006. In the "Regional Summary" category,
the partnership excluded -         related to Canadian and other international
activities. After making the adjust ments as explained by Massachusetts MEP, the
amount AME claimed for the subaward should have been                    However,
Massachusetts MEP's cost summaries show expenses of                       the AME
subaward, a difference of $32,872. Massachusetts MEP did not explain the reason
for the difference.

In addition to our concerns about the overall allowability of costs reported under the
AME subaward, we have concerns about AME's subaward repor ting of program
income and indirect costs.

AME's unaudited financial reports showed revenue figures for each of the 12 cost
categories. Total revenue r eported for the Massachusetts MEP subaward categories
was about -            · None of AME's revenue is included in program income
reported to NIST by Massachusetts MEP.

Program income, as defined in 15 CFR Sec. 14.2(aa), is gross income directly
generated by a supported activity or earned as a result of an award. We cannot
determine from the information provided exactly how much AME revenue falls
within the definition of program income. AME's financial reports indicate that at
least $2.4 million was generated by conferences, and those associated costs were
included in Massachusetts MEP's cost claims to NIST. Since Massachusetts MEP
did not recognize program income generated by AME, total program income
reported to NIST is significantly understated.

AlVIE reported subaward costs of             in the "General & Administration"
category ($-          , less the            adjustments made by Massachusetts
MEP). Neither AME nor Massachusetts MEP adjusted that category to account for
the portion of these costs applicable to the categories not included in the subaward
cost claim. For example, AME's claimed subaward costs do not include the ­
in t he Canadian Kitchener category. However, no adjustment was made to reduce
general and administration expenses applicable to the excluded costs. The
subaward cost claim is overstated because it includes general a nd administration
costs associated with activities Massachusetts MEP directed to be excluded.

Although we understand the process AME was directed to use to report subaward
costs to Massachusetts MEP, AME's practice does not comply with 15 CFR Sec.
14.21 because it does not (1) accurately disclose actual costs incurred under the
subaward, (2) compare actual outlays with budgeted a mounts, a nd (3) rely on
written procedures for determining allowability of costs. Instead, the claimed costs
simply reflect a major portion of the costs AME incurred while performing its


                                          4

U.S. Department ofCommerce                                         Final Report DEN-18135 

Office ofInspector General                                                      March 2009 


regular operations-operations it appears would have been performed regardless of
any subaward relationship between AME and Massachusetts MEP. We questioned
all costs claimed by Massachusetts MEP related to its subaward to AME. If NIST
allows any of these costs, then it should also address the issues of unreported
program income of up to -              and "General & Administration" expenses
allocable to costs not included in the MEP claim.

B. Associated Industries ofMassachusetts

Massachusetts MEP's cost summaries included $-               for the AIM subaward.
The partnership gave us schedules showing AIM's calculations for the period July 1,
2005, through March 31, 2006, but did not provide support for AIM subaward cost
claims for the period Aprill, 2006, through June 30, 2006. We found AIM reported
expenditures that are not actual costs but estimates based on the organization's
lobbying activities and membership mix. AIM calculated its subaward cost claim by
accumulating all costs i ncurred in three line items: salaries and benefits, taxes and
insurance, and rent and utilities. AIM then reduced the figure by a factor to account
for the percentage of its total costs related to lobbying activities. AIM claimed that
•    percent of its operations were dedicated to lobbying activities during the
subaward performance period. Finally, AIM multiplied the calculated amount by a
factor to reflect the percentage of AIM member companies that are manufacturers,
which it claimed was .      percent. Table 2 illustrates AIM's calculation of estimated
subaward expenditures, using the month of January 2006 as a n example.

 Table 2. Illustration of AIM Subaward Cost Claim for the Month of January 2006




AIM's method of calculating the cost of its participation under the Massachusetts
MEP subaward is not in compliance with 15 CFR Sec. 14.21, because it does not (1)
accurately disclose actual costs, (2) allow for comparison of actual outlays with
budgeted amounts, or (3) rely on written procedures for determining allowability of
costs incurred.

We questioned whether Massachusetts MEP's relationship with AIM was a valid
subaward. When we met with AIM's chief financial officer to discuss the
organization's participation under the subaward, he adamantly insisted AIM was


                                           5

U.S. Department ofCommerce                                       Final Report DEN-18135 

Office of Inspector General                                                   March 2009 


not a subrecipient of Massachusetts MEP. The CFO stated that his organization
had a memorandum of understanding to work with the partnership. The CFO
stated he was aware that Massachusetts MEP received funding from the federal
government, but he did not know the specific details of the NIST cooperative
agreement. The CFO also stated that he had made it clear to Massachusetts MEP
throughout the course of his organization's working relationship with the
partnership that AIM had no desire to be a subrecipient.

We also are concerned about the form and structure ofthe alleged subaward
agreement with AIM, which as the CFO stated is titled "Memorandum of
Understanding." NIST's 2005 operating plan guidelines for MEP centers required
certain provisions to be included in all MEP subaward agreements, such as
identification of the NIST coope1·ative agreement number and program number in
the Catalog of Federal Domestic Assistance, a detailed object class budget for the
subaward, and notification of terms, conditions, and other award principles that
flow down from the cooperative agreement to the subaward. We found the written
agreement between AIM and Massachusetts MEP met none of these requirements.

The subaward agreement between Massachusetts MEP and AIM does not mention
NIST funding. The agreement refers to "the federally funded Manufacturing
Extension Partnership program" but does not identify NIST as the funding agency.
The agreement references a subaward only once, in Schedule A, which states that
Massachusetts MEP is providing a subaward of state funds-not MEP cooperative
agreement funds-in the amount of -        per month to AIM.

We also found no detailed budget included in the agreement, as required by NIST's
MEP operating plan guidelines. Other than the mention of -        per month in
state funding from Massachusetts MEP to AIM, there is no mention of any financial
commitment by either party. Special Award Condition No. 6.a.3 of Massachusetts
MEP's cooperative agreement, signed by the NIST grants officer and accepted by
the MEP in September 2005, approved a subaward to AIM in the amount of ­
for the period July 1, 2005, through June 30, 2006. There was nothing in either the
agreement between Massachusetts MEP and AIM, or in NIST's cooperative
agreement terms and conditions that indicated AIM would incur more than
-         in subaward expenses during the 1-year performance period.

We found the agreement did contain a list of federal laws and regulations with
which the parties agreed to comply. However, the applicable administrative and
cost principles of 15 CFR, P art 14 (administrative), and OMB Circular A-122 (cost           ;   .
principles) of the AIM subaward were not included.

Based on the issues we found, we questioned all the costs claimed by Massachusetts
MEP related to its subaward with AIM. If NIST were to conclude that any of these
costs are allowable, it should not accept more than the -      approved in the


                                         6

V.S. Department ofCommerce                                      Final Report DEN-18135 

Office ofInspector General                                                  March 2009 


terms of Massachusetts MEP's cooperative agreement for the period July 1, 2005,
through June 30, 2006.

C. Summary ofMassachusetts MEP Response

Massachusetts MEP disagreed that costs reported by AME and AIM are
unallowable, stating that Section 3003(a)(3)(C) of the America COMPETES Act of
2007 (Public Law 110-69) directs MEP centers to enter into partnerships with
nonfederal entities and gives the centers authority to determine which costs
incurred by these partners are reasonable and allocable as nonfederal matching
share costs. Although the America COMPETES Act became law after the OIG audit
period, Massachusetts MEP stated that the act simply clarifies existing law- rather
than creating new law-and should be retroactively applied. The MEP therefore
contended that we improperly questioned $4,167,430 in claims associated with
these partnerships.

Unaccepted AME claims. The MEP stated that NIST approved its collaboration
with AME and the associated costs when approving the MEP's operating plan for
the year beginning July 1, 2005. It disagreed that AME's claims do not meet
regulatory requirements and stated that all AME costs are verifiable, that annual
budgets are developed and reviewed, and actual costs are compared with budgets
monthly and quarterly. Massachusetts MEP reiterated its contention that the
America COMPETES Act gives the center authority to determine allowability of
costs reported by its subrecipients.

Massachusetts MEP explained that it did not report AME's program income of
-          because AME used this revenue to fund MEP activities. It further stated
thatAME generated an excess ofMEP-related revenues over expenses of about
-       , but these funds would be expended on project-related costs during the
subsequent subaward period, so the MEP did not report the amount to NIST.

Disputed status ofMEP's relationship with AIM. Massachusetts MEP stated that
OIG should not have treated AIM as a subrecipient. Instead, AIM is a third-party
in-kind contributor and therefore is not required to meet the financial management
standards of 15 CFR Sec. 14.21. Instead, according to the MEP, OIG should have
assessed the allowability of AIM's cost claims under the standards for in-kind
contributions, which appear in 15 CFR Sec. 14.23. Furthermore, the MEP
contended that NIST approved AIM's methodology for allocating portions of its
operating expenses to Massachusetts MEP when accepting the MEP's annual
operating plan.

D. OIG Comments

America COMPETES. The Massachusetts MEP's belief that a change to the MEP


                                         7

U.S. Department ofCommerce                                          Final ReportDEN-18135 

Office ofInspector General                                                     M arch 2009 


statute resulting from the America COMPETES Act gives the centers authority to
determine the reasonableness and allocability of contributions is not supported by a
straightforward analysis of the amendment in question. The critical sentence of the
relevant change reads as follows:

       All non-Federal costs, contributed by such entities and determined by a
       Center as programmatically reasonable and allocable under lVIEP program
       procedures are includable as a portion of the Center's contribution. 15 U.S.C.
       §278k(c)(3)(C).

There is no question that this provision authorizes MEP centers to make
determinations as to the reasonableness and allocability of contributions they
receive. That those determinations are not final is evidenced by use of the
permissive word "includable," as opposed to mandatory language such as "shall be
included" or "must be included." Such determinations must also be made pursuant
to MEP program procedures-a critical requirement that the grantee omitted when
quoting this provision. MEP program procedures explicitly call for the centers to
determine what costs to claim and not what costs to allow, state that the cost
principles apply and provide for program review of a recipient's claimed costs, with
authority to make final determinations of reasonableness and allow ability resting
with the government. In light of the foregoing, the only reasonable interpretation of
this sentence is that centers make initial determinations about contributed costs
that can be claimed, but those determinations, pursuant to MEP program
procedures, are subject to review by the government. Nothing in this language or
any other provision of the act gives the centers authority to make final and
unreviewable determinations regarding whether costs claimed by third-party
partner s are reasonable or allocable.

Because the relevant change to the MEP statute clarifies congressional intent
without materially altering the rights and obligations of grantees, the change can
be retroactively applied. It should be noted that had the interpretation suggested by
Massachusetts MEP been correct, then under well-established principles of law it
would not be eligible for retroactive application, as it would constitute a significant
change in law and would materially alter grantees' rights and obligations under the
program.

Unaccepted AME claims. OIG does not dispute that AME provided supporting
documentation for reported costs and that the MEP engaged in some level of review
of those submissions. Our contention remains that the costs were not allowable
subaward costs because AME did not distinguish its subaward activities from its
other business operations. The AME subaward budget mentioned in Massachusetts
MEP's response did not reflect proposed costs for subaward activities, but rather
broad classes of AME's projected firm-wide operating costs. Since Massachusetts
MEP failed to provide any documentation showing that AME accumulated and


                                           8

U.S. Depllrtmenl ofCommerce                                         Final Report DEN- 18135 

Office ofInspector General                                                      Marcil 2009 


reported costs allocable to its subaward, separate and distinct from costs incurred
through its regular annual oper ations, we continue to question~ claimed
for this subaward.

Massachusetts MEP's rationale for not reporting AME's revenues as program
income does not excuse its failure to report. Program income is gross revenue
generated by a recipient or subrecipient as a direct result of the award.
Notwithstanding OIG's position that none of AME's claimed costs are allowable,
Massachusetts MEP should have reported as rogram income all revenue
associated with the claimed                     according to the MEP's response.
After applying program income of                 claimed AME expenses,
undisbursed program income of about              should have been reported to NIST.

Disputed status ofMEP's relationship with AIM. Regarding Massachusetts MEP 's
                                                                                                l.
assertion that OIG should have treated AIM as a thir d-party in-kind contributor, it
was the MEP- not the auclitors, as suggested in the MEP's response- that
identified AIM as a subrecipient. The MEP's annual operating plan for the period
July 1, 2005, through June 30, 2006, clearly refers to AIM as a subrecipient. Based
on the operating plan, the NIST grants officer approved, in the special award
conditions of the cooperative agreement, AIM as a subrecipient.

However, even if the MEP's position were acceptable to NIST, we do not believe the
AIM claims would be allowable. The MEP Annual Operating Plan Guidelines and
the terms and conditions of Massachusetts MEP's cooperative agreement establish
specific requirements for documenting third-party in-kind contributions. These
include, for contributions of personnel services, a list of personnel and specific
projects or tasks they worked on, dates worked, number of hours contributed,
hourly salary rates, and certified time and attendance records documenting the
contributions. Massachusetts MEP did not provide such documentation related to
AIM's claims. Furthermore, since AIM's claims were based, in large part, on
percentage estimates of organization-wide salary and benefits costs, we are highly
skeptical that AIM, and consequently Massachusetts MEP, could meet the


We continue to question

II. Unallocable Contract Costs
                              $-
documentation requirements for third-party in-kind contributions.

                                   in claims associated with AIM.



Massachusetts MEP's reported project costs include a total of $908,823 in direct and
indirect costs incurred under two contracts awarded to the MEP. It is important to
understand that these contracts were received by Massachusetts MEP to provide
services to the r espective procuring entities, rather than awarded by Massachusetts
MEP as part of its NIST cooperative agreement activities. As procurement
contracts, not awards of financial assistance, the services provided by the MEP


                                          9

U.S. Departme11t ofCommerce                                            Final Report DEN- /8135 

Office of Inspector General                                                        March 2009 


under these agreements were for the direct use and benefit of the procuring entities,
not for the benefit of the cooperative agreement project. Massachusetts MEP did not
accumulate costs for these subcontracts under the cost center established for the
cooperative agt·eement but instead established separate cost accounting centers for
each of the subcontracts. Costs incurred under the two contracts must be allocated
to the respective contracts, not the MEP cooperative agreement.

A. New England Manufa cturing Supply Chain Initiative

In November 2003, officers of MEP Management Services, Inc. (MEP MSI), the
partnership's managing agent, signed a "vendor agreement" with Massachusetts
MEP to act as a second-tier subcontractor in a deal with the U.S.            artment of
Defense, which had awarded a contract to                                                to
expand access among small and mtlaiurri-s.Ize ....o,.........a,,.,
Department supply chains.                                     then awarded a subcontract to
MEP MSI, which in turn, awarded a subcontract to Massachusetts MEP.

The subcontract, as amended, requires Massachusetts MEP to (1) identify and
establish working relationships with organizations and initiatives that could add
value to the program, (2) support Defense Logistics Agency plans to integrate
manufacturing capability data from multiple sources and make these data available
to Defense Department procurement decision makers, (3) collect capability data
from small manufacturers in six New England states and store the data using
existing databases, (4) assist capable small manufa cturers selected for participation
in prototypes to increase their capabilities to become Defense Department suppliers,
and (5) collect and report performance metrics to measure the effectiveness of the
program.

The subcontract provided for MEP MSI to compensate Massachusetts MEP for
services at stated billing rates, plus reimbursement for reasonable expenses in
accordance with the Federal Acquisition Regulation. The subcontract was amended
several times to extend the service period and adjust contract billing rates. On
October 28, 2005, a new subcontract was issued to reflect a name change for the
first-tier subcontractor from MEP MSI to Time Wise Management Systems, Inc.,
doing business as MEP Management Services. This subcontract extended the
performance period through July 27, 2006.

During the period July 1, 2005, through June 30, 2006, Massachusetts MEP
claimed -        in costs to NIST for services under the Defense Department
subcontract. The MEP's financial records indicate it received - i n revenue
under the subcontract. We verified that the revenue was included in program
income reported to NIST. (See page 13.)

We examined Massachusetts MEP's operating plan submitted to NIST for the


                                            10 

U.S. Department ofCommerce                                                          Final Report DEN-/8135 

Office ofInspector General                                                                      March 2009 


period July 1, 2005, through June 30, 2006, to determine whether the MEP
disclosed the Defense Department subcontract. The manufacturing supply chain
initiative is mentioned in the oper ating plan, but Massachusetts MEP did not
disclose that costs associated with the services were funded under a Defense
Department subcontract. Costs incurred under the subcontract are allocable to that
contract and not the MEP cooperative agreement. We questioned -            in costs
claimed relative to the subcontract.

B. Machine Operators Skills Training Grant

In August 2005, Massachusetts MEP received a subcontract from Maine MEP,
which also retained Time Wise Management Systems (formerly MEP MSI) as its
managing agent. According to the vendor agreement signed by officers of the Maine
and Massachusetts MEPs, the U.S. Department of Labor awarded a contract! to the
State of Maine, Department of Economic and Community Development. The state
then awarded a subcontract under its Department of Labor contract to Maine MEP,
which awarded a subcontract to Massachusetts MEP on August 1, 2005, making
Massachusetts MEP a second-tier subcontractor. The subcontract requires
Massachusetts MEP to designate a staff member as liaison with the project
ma nager, and to (1) identify small and medium-size manufacturers to pa1·ticipate
in the program, (2) work with local career centers to recruit potential machine
operator trainees, and (3) identify institutions that can provide training facilities. It
also requires the MEP to assist the project manager with other activities deemed
necessary for the success of the program. The subcontract pays MEP a fixed amount
of -        per year made in monthly installments plus reimbursement for
reasonable expenses. The performance period for the subcontract was July 1, 2005,
through June 30, 2007.

During the period J uly 1, 2005, through June 30, 2006, Massachusetts MEP
claimed -        to NIST for services under the Department of Labor subcontract.
Massachusetts MEP financial records show that it received -          in revenue
under the subcontract. We verified that the revenue was included in program
income reported to NIST. (See page 14.)

We examined Massachusetts MEP's operating plan submitted to NIST for the
period July 1, 2005, through June 30, 2006, to determine whether the MEP
disclosed the Department of Labor subcontract. We found no mention of the
Machine Operators Skills Training Grant program, or any reference to t he
Department of Labor-funded training program in the operating plan. Costs incurred
under the Department of Labor subcontract are allocable to that contract and not
the Massachusetts MEP cooperative agreement. We questioned -             in costs
claimed by Massachusetts MEP relative to the subcontract.

1
 The vendor agreement between Massachusetts and Maine MEPs identities the Department of Labor agreement as a
contract, although the program' s name implies it was a grant.


                                                     II

V.S. Department ofCommerce                                        Fin11l Report DEN-18135 

Office ofInspector General                                                     March 2009 




Also, in the case of the subcontract Massachusetts MEP received from Maine MEP,
it is possible that the same costs were reported to NIST under both organizations'
MEP cooperative agreements. As Maine MEP had received a procurement contract
from the State ofMaine, Department of Economic and Community Development, all
costs incurred by Maine MEP under that contract- including the costs of the
subcontract to Massachusetts MEP-are allocable to Maine MEP's contract with
the state, and not to Maine MEP's NIST cooperative agreement. We did not review
financial records of Maine MEP in the course of our audit of Massachusetts MEP
and therefore did not determine whether Maine MEP claimed, under its NIST
cooperative agreement, any costs associated with its contract from the state.

C. Summary of Massachusetts MEP Response

Massachusetts JYIEP disagreed that $908,823 in costs claimed under the two
contracts should be disallowed, stating that, pursuant to its authority under the
America COMPETES Act, the costs were reasonable and allocable to the MEP
award:

        The costs of the contracts are allocable to the Massachusetts MEP
        award because the contracts and the work performed thereunder
        are in furtherance of the Massachusetts MEP's mission. MEP
        incurred the costs associated with the contracts not because of the
        contracts themselves hut because the contractors were like many
        other clients who contract with Massachusetts MEP for services.

The MEP cited OMB Circular A-133, which states that funds received as vendor
payments from customers should not be considered federal award payments.
"Massachusetts MEP is a vendor to Maine MEP" and services performed under the
subcontract "are ancillary to the operations of the Federal (NIST MEP) program."
Since the prohibition against using federal funds to pay matching share expenses
applies to award payments, not vendor payments, the MEP stated that the
-         generated under the subcontract from Maine MEP should be eligible for
use as nonfederal matching share.

D. OIG Comments

Again, we point out that the MEP's assertion that the America COMPETES Act
gives MEP centers unreviewable authority to make determinations relative to
allowability of nonfederal matching share costs is incorrect. Massachusetts MEP's
response did not directly address our primary rationale for questioning the costs;
namely, that the contracts represent individual and separate accounting cost
centers within the MEP, and costs incurred under these contracts are separate and
distinct from the NIST MEP award cost center. OMB Circular A-122 states, "A cost


                                         12 

U.S. Department of Commerce                                          Final Report DEN- 18/35 

Office of Inspector General                                                       March 2009 


is allocable to a particular cost objective, such as a grant, contract, project, service,
or other activity, in accordance with the relative benefits received." As procurement
contracts, the services performed by Massachusetts MEP were for the direct benefit
of the procuring entities and thus the costs incurred were allocable to those
contr acts a nd not the MEP award.

III.   Questioned Contractual and Other Direct Costs

We identified ~ in contractual costs for consultant charges for services
performed before the J uly 1, 2005, starting date
The

-
                charges include (l)~aid to
                 an invoice dated May 20, 2005, and (2)
                                                                    ·

                                                                         to­
       or consulting services provided in May 2005. Preaward costs are not
allowable unless approved in writing by NIST. We found no evidence of NIST
                                                                                          t.




approval for preaward costs.

We also questioned ~ of indirect costs associated with the questioned
contractual and other direct costs.

A. Summary of Massachusetts MEP Response

Massachusetts MEP did not challenge OIG's questioning of ~ in preaward
contractual costs or the associated indir ect costs of ~- However, our draft audit
report also questioned ~ in conference registr ation fees-and associat ed
indirect costs of $!11111-paid for staff of other MEP centers. Massachusetts MEP
provided documentation that indicates these a mounts were not actually included in
its cost claims to NIST.

B. OIG Comments

We removed the ~ in conference registration fess, and associated indirect costs
of~' from amounts questioned.

IV. Excess Program Income

Our analysis showed Massachusetts MEP generated program income that exceeded
its required nonfederal matching share by $1,093,495 for the 12 months ended June
30, 2006, even after excluding the costs and revenues of the two subcontracts we
questioned. The center reported earning ~ in program income, of which
~ was required to fund nonfederal expenditures. Program income, as
defined in 15 CFR, Sec. 14.2(aa), is revenue generated by a financial assistance
recipient as a result of performing work under its award. Two common sources of
program income in MEP centers include tuition or other fees paid by manufacturers
who a ttend training classes sponsored by the center and fees paid by manufacturers


                                           13 

U.S. Department ofCommerce                                                                 Final Report DEN-18135 

Office ofInspector General                                                                             March 2009 


for services provided by MEP staff or contractors. NIST usually allows MEP centers
to use program income to fund the nonfederal share of project costs.

We reviewed Massachusetts MEP's operating plan for the year ended June 30,
2006, to determine whether the center had advised NIST that it would be
generating program income in excess of its nonfederal matching share
requirements. The operating plan budget projected that the center would generate
-           in program income that would be applied to nonfederal expenditures,
leaving no undisbursed program income.

In May 2006, NIST issued a universal amendment to alllVIEP cooperative
agreements that were in effect as of July 1, 2005, stating that excess program
income could be carried over to a subsequent funding period with the grants officer's
prior approval. 2

We examined the terms and conditions of Massachusetts MEP's cooperative
agreement and subsequent amendments and found no NIST approval for retaining
undisbursed program income to be applied in future award periods. We also asked
the NIST grants office whether it intended to allow Massachusetts MEP to retain a
large balance of undisbursed program income for use in future award periods. The
NIST grants specialist responsible for the Massachusetts MEP award confirmed
that the partnership had never requested such approval.

According to award terms and conditions and federal regulation, the undisbursed
program income must be used to reduce the federal sh are ofMassachusetts MEP's
expenditures; 15 CFR Sec. 14.24(c) requires amounts "in excess of any limits
stipulated" to be deducted from total allowable project costs in computing the
amount of federal funds for which the recipient qualifies. Since Massachusetts MEP
did not receive approval to carry any of its undisbursed program income forward to
the subsequent award period, we reduced total accepted project costs by $1,093,495
in excess income in computing Massachusetts MEP's federal funds earned for the
year ended June 30, 2006, in accordance with 15 CFR Sec. 14.24(c).

A. Summary of Massachusetts MEP Response

In a footnote to its response, Massachusetts MEP stated that adjustment to its
financial reports after the end of the audit period reduced undisbursed program
income as of June 30, 2006, from $1,093,495 to -          ·

Although not responding directly to our finding t hat Massachusetts MEP did not

2
 The purpose of the amendment was to incorporate NIST's revised MEP General Terms and Conditions, dated
April2006, into all active awards. Section 15 f of the revision, "Excess Program Income," states program income in
excess of what is required in an operating year to meet the non federal share of the award may be carried over to the
subsequent funding period with the prior written approval of the grants otlicer.


                                                         14 

U.S. Department ofCommerce                                        Final Report DEN-18135 

Office ofInspector General                                                    March 2009 


obtain NIST approval to carry its undisbursed program income forward to the
award period beginning July 1, 2006, the MEP stated that it received grants office1·
approval to carry undisbursed program income forward into the award period
beginning July 2008. Based on this approval, the MEP believes OIG's finding of
excess program income should be removed.

The MEP also stated its belief that only one-third of any excess amount must be
reported to NIST and potentially used to reduce allowable program costs. According
to the MEP, the remaining two-thirds of any excess "is unencumbered by the grant
requirements." As basis for its opinion, the MEP cited a 1984 decision by the
Department of Health and Human Services Departmental Appeals Board. The
MEP's response states that "one must look to other federal agency regulations for
guidance" on handling program income because neither NIST nor the Department
of Commerce have issued regulations relative to program income under the MEP
program.

B. OIG Comments

Massachusetts MEP did not provide documentation supporting its claim that
undisbursed program income on June 30, 2006, was -            'rather than
$1,093,495, as originally reported to NIST. Therefore, we did not adjust our
calculation for dealing with excess program income from the amount in the draft
audit report.

We verified that NIST approved carry-forward of$-            in undisbursed program
income from the award period ended June 30, 2008, into the period beginning
July 1, 2008. However, the award amendment giving this approval does not
specifically reference the undisbursed program income as of June 30, 2006. As a
result, there still is no evidence that NIST approved carry-forward of the excess
cited in this report. Furthermore, as discussed in the following paragraph.,
Massachusetts MEP's methodology for determining the amount of undisbursed
program income that must be tracked and reported to NIST is flawed. Ifthis
methodology was used to calculate the June 30, 2008, carry-forward amount, the
amount NIST approved may reflect only a portion of Massachusetts MEP's
undisbursed program income as of June 30, 2008.

OIG does not agree with Massachusetts MEP's contention that only one-third of the
undisbursed program income need be reported to NIST and potentially used to
reduce federal funds earned. The MEP's contention that NIST has not issued
specific regulations to deal with program income is misleading. There are specific
directions for handling excess program income in 15 CFR Sec. 14.24, which codifies
OMB Circular A-110 for the Department of Commerce. NIST augmented these
directions with MEP-specific policy in the general terms and conditions for MEP
awards. There is no provision in either the OMB or NIST policy that directs


                                         15 

U.S. Department of Commerce                                        Final Report DEN-18135 

Office ofInspector General                                                      March 2009 


recipients to report only a percentage of the excess program income to the
government. Furthermore, the directions for handling excess program income
included in 15 CFR Sec. 14.24(c) and applied in this report account for the federal
and nonfederal portions of the excess by reducing total allowable project costs before
computing federal funds earned. Once this calculation is completed, the excess has
been resolved and the recipient is under no obligation to track and report any
portion of the excess to NIST.

V. Recommendations

We recommend that the NIST grants officer

       • disallow $5,086,998 in questioned costs, and

        · 	 recover $1,294,073 in excess federal funds after deducting excess program
            income in the amount of $1,093,495 from total accepted project costs.




                                           16 

U.S. Department ofCommerce                                       Final Report DEN-18135 

Offtee of Inspector Ge11eral                                                 March2009 


                       SUMMARY RESULTS OF FINANCIAL AUDIT 


Below are summarized results of our interim cost audit for the period July 1, 2005,
through June 30, 2006 (see appendix C):

       Federal Funds Disbursed                                  $2,364,771
       Costs Incurred                            $9,392,908
       Less: Questioned Costs                     5.086.998
       Costs Accepted                             4,305,910
       Less: Excess Program Income                1.093.495
       Basis for Federal Share                    3,212,415
       Federal Cost Sharing Ratio                  X   3.33%
       Federal Funds Earned                                      1.070.698

       Refund Due the Government                               li..294.073




Dr. Brett M Baker    March 31, 2009 

Assistant Inspector General for Audit 





                                          17 

U.S. Department ofCommerce                                       Final ReportDEN-18135 

Office ofInspector General                                                  March 2009 


                APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether Massachusetts MEP claimed
costs to NIST, including costs incurred by subrecipients, that were reasonable,
allocable, and allowable in accordance with applicable federal cost principles,
cooperative agreement terms and conditions, and NIST policy, including MEP
Operating Plan Guidelines. To meet our objective, we interviewed Massachusetts
MEP and NIST Grants Office officials, reviewed NIST award documents, and
examined financial records ofMassachusetts MEP. We also interviewed officials
and examined financial records of two Massachusetts MEP subrecipients.

Our audit objective did not include assessing Massachusetts MEP's performance
under the award, so a ny subsequent performance audits could result in additional
questioned costs. We did not rely solely on computer-processed data but instead
augmented computer-processed data with substantive tests of transactions to
develop our findings and r ecommendations.

This audit's scope included only costs claimed by Massachusetts MEP from July 1,
2005, through June 30, 2006.

Our audit included an assessme nt of the MEP's internal controls applicable to the
award to evaluate the effectiveness of the control and accountability systems. We
reviewed Massachusetts MEP's sing·le audit report for the year ended June 30,
2004- the most recent report available at the time of our audit. An independent
certified public accounting firm conducted the audit in accordance with Office of
Management and Budget Circular A-133. The report found no material internal
control weaknesses. We did not rely on the accounting firm's internal control
reviews but instead determined that we could better meet our audit objectives by
testing transactions.

We reviewed compliance with laws and regulations as they applied to costs
incurred, using as criteria OMB Circular A-122, Cost Principles for Nonprofit
Organizations, and 15 CFR, Part 14, Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, Other
Non-Profit, and Commercial Organizations. We also assessed compliance with the
Department of Commerce Financial Assistance Standard Terms and Conditions,
MEP General Terms and Conditions, and the cooperative agreement Special Award
Conditions. We note instances of noncompliance with stated laws and regulations in
this report.

We performed audit fieldwork during August and September 2006 at Massachusetts
MEP's headquarters in Woburn, Massachusetts, and at sub1·ecipient offices in
Boston and Chicago.



                                         18 

U.S. Department ofCommerce                                       Final Report DEN-18135 

Office of Inspector General                                                   March 2009 


This audit was conducted under the authority ofthe Inspector General Act of 1978,
as amended, and Department Organization Order 10-13, dated August 31, 2006,
and in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained does provide a
reasonable basis for our findings and conclusions




                                         19 

U.S. Department of Commerce                       Finn! Report DEN-18135 

Office of Inspector General                                    March 2009 


                                                       APPENDIXB 



                        MASSACHUSETTS MEP 

           NIST COOPERATIVE AGREEMENT NO. 70NANB5Hl144 

           SUMMARY OF SOURCE AND APPLICATION OF FUNDS 

                  JULY 1, 2005 THROUGH JUNE 30, 2006 



                              Approved        Receipts &
                               Budget         Expenses

SOURCE OF FUNDS:

Federal                       $2,364,771      $2,364,771
Non-Federal                    4.729,542       7.028.137

Total                         $7.094.313      ~9!392!llil8




APPLICATION OF FUNDS:

Personnel
Fringe Benefits
Conti·actual
Other
Supplies
Travel
Equipment
Cash Match
In-Kind
Indirect Costs

Total                         $7.094.313      1,9 392.908




                                20 

U.S. Department of Commerce                                             Final Report DEN-18135 

Office ofInspector General                                                           Marcft 2009 


                                                                              APPENDIX C


                         MASSACHUSETTS MEP 

            NIST COOPERATIVE AGREEMENT NO. 70NANB5H1144 

              SUMMARY OF FINANCIAL/COMPLIANCE AUDIT 

                   JULY 1, 2005 THROUGH JUNE 30, 2006 


                                                            Results ofAudit
                   Approved      Costs             Costs        Costs         Costs
Description        Budget       Claimed          Questioned Unsupported     Accepted

Personnel                                                     (a)             0
Fringe Benefits                                               (a)             0
Contractual                                                   (a)(c)          0
Other                                                         (a)             0
Supplies                                                      (a)             0
Travel                                                        (a)             0
Equipment                                                     (a)             0
Cash Match                                                    (b)             0
In-Kind                                                                       0
Indirect Costs                                                (a)(d)          0
Total                                                               $         0

F ederal Funds Disbursed                  $2,364,771
Costs Incurred             $9,392,908
Less: Questioned Costs      5,086,998
Costs Accepted              4, 305,910
Less: Excess Program Income 1,093.495 (e)
Basis for Federal Share     3,212,415
Federal Cost Sharing Ratio      x33.33%
Federal Funds Earned                       1.070,698

Refund Due the Government                        $1.294.073

Notes:

(a) Questioned amounts for personnel, fringe benefits, contractual, other, supplies,
    travel, equipment, and indirect costs represent charges claimed for activities
    under two contracts awarded to Massachusetts MEP to perform services for the
    respective procuring entities. (See page 9.)
(b) Questioned cash match involves claims for costs incurred by two Massachusetts
    MEP subrecipients that could not provide documentation that their claims were
    based on actual costs incurred under their subawards. (See page 2.)



                                          21 

U.S. Department ofCommerce                                        Final Report DEN-18135 

Office of Inspector General                                                    March 1009 


(c) 	Questioned contractual costs include -        for services provided prior to the
     July 1, 2005, starting date of the award. (See page 13.)
(d) Questioned indirect costs include -        associated with the questioned other
     direct costs.
(e) Massachusetts MEP reported a balance of $1,093,495 in undisbursed program
     income as of June 30, 2006. NIST did not approve carrying forward undisbursed
     program income for use in the subsequent award period. According to award
     terms and conditions and federal regulation, the undisbursed program income
     must be used to reduce the federal share ofMassachusetts MEP's expenditures.
     (See page 13.)




                                         22 

                                                                                                        APPENDIXD 





                                                                  K&l Gatts UP
K&LIGATES 	                                                       1601 KStreet, NW
                                                                  Washingto~ D.C. 20006-1600



                                                                   T202.n8.9000       www.klgates.com

   September 20, 2008                                             William A. Shook
                                                                  D(202)66I­
                                                                           @klgates.com


   Judith J. Gordon                                                       DENVER REGIONAL OFFICE
   Assistant Inspector General 

     for Audit and Evaluation 
                                                   SEPt: 3!:008
   United States Department of Conunerce
                                                                              OIG/OFFICE OF AUDITS
   Office of Inspector General                                                 OEPT OF COMMERCE
   1401 Constitution Avenue, NW, Room 7886B 

   Washington, DC 20230 


   JohnS. Bunting
   Regional Inspector General for Audits 

   United States Department of Commerce 

   Office of Inspector General 

   Denver Regional Office of Audits
   999 181h Street, Sutie 765
   Denver, Colorado 80202-2499

   Dear Ms. Gordon and Mr. Bunting:

   As counsel to Massachusetts MEP, please find enclosed comments on the Draft Audit Report
   concerning Award No. 70NANB5Hll44. Please note that the Jetter that transmitted the
   Draft Audit Report, dated August 2 1, 2008, was not actually received by Massachusetts MEP
   until August 26, 2008. Therefore, we understand that we have 30 days from date of actual
   receipt of the Draft Audit Report to finalize comments. We sought clarification of this point
   on September 19, 2008 but were unable to have anyone in your offices confinn tbis
   understanding and were unable to reach you. Out of an abundance of caution, we are filing
   these comments. If we are correct that we have the full 30 days, we will file final comments
   within that time period.

   Should you have any questions, please contact me directly at 202 661 •         .

   Very truly yours,                                                                                                  i
                                                                                                                      ! .

   K&L GATES LLP

   Byc:vJ),~
     William A. Shook
                                                    APPENDIXD 





September 20, 2008
Page2


cc: Mr. Jack Healy

   Joyce Brigham, Grants Officer
   Grants and Agreements Management Division
   National Institute of Standards and Technology
   United States Department of Commerce
   100 Bureau Drive, Stop 1650
   Building 411, Room A-143
   Gaithersburg, Maryland 20899-1650
    w/o attachments
                                                                                            APPENDIXD 





             Massachusetts MEP Response to Draft Audit Report No. DEN-18135-8-001

INTRODUCTION

This Draft Audit Response responds to the findings and questioned costs raised by the Draft
Audit Report No. DEN-18135-8-001, of the Massachusetts Manufacturing Extension Partnership
("MEP") Award No. 70NANB5H1144 for the period July 1, 2005 through June 30, 2006. The
Draft Audit Report contained findings and questioned costs in four main areas: unallowable
subrecipient costs, unallocable contract costs, questioned contractual and other direct costs, and
excess program income. This response will address each issue raised in the Draft Audit Report.

The Massachusetts Draft Audit Report is dated August 21, 2008. Massachusetts MEP Draft
Audit Report Response is postmarked on or before September 20, 2008 (the thirtieth day from
the date of the letter). 1 Although Massachusetts MEP (also sometimes referred to herein as the
"Center") requested an extension of time to respond to the issues raised in the report, that request
was denied. We understand that the auditors will consider the comments below and issue a Final
Audit Report, at which time Massachusetts MEP will again have an opportunity to respond. 2 At
the same time, NIST will have a maximum of sixty (60) days to prepare an audit report action
plan which must be approved or disapproved by the Office of Inspector General ("OIG") within
fifteen (15) working days. 3 If the OIG has any disagreements with the audit action plan, the
Assistant Inspector General for Compliance and Audit Resolution and the NIST audit resolution
officer shall work to resolve any disagreements within 45 days. 4 If agreement cannot be reached,
the OIG will convene a meeting of the Audit Resolution Council. If the Council does not reach a
resolution, the matter will be referred to the Deputy Secretary of the Department of Commerce
for final decision. 5

OVERVIEW OF THE MEP PROGRAM

The overarching goal of the MEP program, as embodied in the authorizing statute, is to increase
the global competitiveness of United States manufacturing by enhancing productivity and
technological performance. 6 Congress envisioned that MEP Centers would accomplish this goal
by: (1) the transfer of manufacturing technology and techniques from NIST to Centers to
manufacturing companies; (2) participation of individuals from industry, universities, State
governments, other Federal agencies and NIST in cooperative technology transfer activities; (3)
efforts to make new manufacturing technology and processes accessible and usable by small and
medium-sized U.S. companies; (4) active dissemination of scientific, engineering, technical, and
management information to industrial firms; and (5) utilization of expertise and capability that
exists in Fcdcrallabs other than NIST. 7 Specific activities conducted by the Centers would
include: (1) establishment of automated manufacturing systems and other advanced production
technologies, based on research by the Institute, for the purpose of demonstrations and

1
  Ex. I at I.
2/d.
3
  United States Department of Commerce, Departmental Administrative Order No. 213-5, § 6.
4   /d.
5   /d. 

6
    15 U.S.C. § 278k(a). 

7
    15 u.s.c. § 278k(b). 



                                                      1

                                                                                            APPENDIXD 





    technology transfer; (2) the active transfer and dissemination of research findings and Center
    expertise to a wide range of companies and enterprises, particularly small- and medium-sized
    manufacturers; and (3) loans, on a selective, short-term basis, of items of advanced
    manufacturing equipment to small manufacturing firms with less than 100 employees. 8

MEP Centers are instructed, by statute, to achieve these objectives by forming partnerships with
organizations such as private industry, universities, and State governments. The goal of these
partnerships is three-fold: to accomplish programmatic objectives, to further the impact of the
Federal investment, and to assist recipients in meeting their cost-share requirements. 9 The
partnering organizations take the knowledge shared by the MEP Center and, through their own
activities, assist manufacturing firms, expanding the impact of the Federal investment.

In 1998, Massachusetts MEP began delivering manufacturing extension services to small- and
medium-sized manufacturers ("SMEs"). Over the past ten years, Massachusetts MEP has
developed many strong partnerships with organizations, associations, universities, and other non
profits that focus on improving the competitiveness of American manufacturers. Working with
these organizations and with manufacturers directly has led Massachusetts MEP to the
realization, consistent with statutory direction, that participating in the statewide and nationwide
economic development networks is an efficient and effective way for Massachusetts MEP to
accomplish its statutory mission.

Partnerships, consistent with statutory mandates, add value to Massachusetts MEP by reducing
the duplication of activities and by leveraging the partner's activities to increase Massachusetts
MEP's mission effectiveness, penetration, and output. 10 Partners use their own reputation and
marketing and referral activities to promote the MEP efforts and services, resulting in increased
market penetration and efficiencies in project execution. Partners also increase the
Massachusetts MEP' s value and prevalence within the American manufacturing community by
integrating MEP services into the partner's own services to enhance achievement and
performance by small and medium sized manufacturers.

Activities performed by partners are mutually beneficial to the partner, its members,
Massachusetts MEP's clients, and the Center itself. The goal of the MEP program, as embodied
in its programmatic objectives, is not to bring other resources back into the Center (the typical
paradigm of cost-share programs), but instead the goal is to push the technology, programs, and
expertise as far out into the American manufacturing community as possible. The direct benefit
the Center receives from its partnerships is the ability of another entity to provide the services
and perform the education and outreach functions that would otherwise fall to the Center,
allowing the Center to focus on offering additional services, education, and outreach to SMEs.

Recently, in August 2007, Congress enacted a legislative amendment to clarify how the MEP
Centers' cost contributions are to be determined. Clarification became necessary after the
findings of the OIG audits of 2003 that were inconsistent with the original intent of Congress


8
    15 U.S.C. § 278k(c); Ex. 3
9
  Id.
10
   America Competes Act, P.L. 110-69, Sec. 3003, 121 Stat. 587 (2007).


                                                        2

                                                                                                               APPENDIXD 





 with regard to the mission, purpose and structure of the MEP program as established by
 Congress.

The provisions in the legislative clarification clarify the nature and classification of non-Federal
costs contributed by partnering organizations. The legislative clarification clearly establishes that
"all non-Federal costs, contributed by such entities and determined by a Center as
programmatically reasonable and allocable ... are includable as a portion of the Center's
contribution." America Competes Act, Pub. L. 110-69, § 3003(a)(3)(C) (emphasis added). The
legislative history is clear that contributions by industry, universities, and state governments,
"may be included as a portion of the Center's 50 percent or greater funding obligation if it is
determined by the Center to be programmatically reasonable and allocable." H. Rept. 110-289 at
16 (emphasis added).

The language clearly defines "costs incurred" as "costs incurred in connection with the activities
undertaken to improve the management, productivity, and technological performance of small­
and medium-sized manufacturing companies." America Competes Act, Pub. L. 110-69, §
3003(a)(3)(C). The legislation further states that:

                  "In meeting the 50 percent requirement, it is anticipated that a Center will
          enter into agreements with other entities such as private industry, universities, and
          State governments to accomplish programmatic objectives and access new and
          existing resources that will further the impact on the Federal investment. ... All
          non-federal costs, contributed by such entities and determined by a Center as
          programmatically reasonable and allocable are includable as a portion of the
          Center's contribution."

!d. The Draft Audit Report dismiss the value of the partnership by arguing that these partners
would exist whether there is an MEP Center or not. However, in doing so the auditors dismiss
the statutory requirement that Massachusetts MEP enter into partnership agreements so as to
obtain existing resources to finance their programmatic activities. Contrary to the auditors'
interpretation, the Center is not directed to create new organizations, but rather to utilize the
resources of existing organizations in order to efficiently and economically promote the transfer
of technology.

Please note that in determining whether an amendment clarifies or substantively changes a prior
law, a court may consider several factors. 11 One such factor is whether the enacting body has
stated its intent to clarify the prior enactment. 12 Here we have such a declaration by Congress,
not just in the text of the act itself, but also in the legislative history. Congress titled the section
"Clarification of Eligible Contributions in Connection with Regional Centers Responsible for
Implementing the Objectives of the Program." Clarification should be given its ordinary
meaning and should be treated as a declaration by Congress of its intent for the amendment to
serve as a clarification of existing practice.



11
  Piamba Cortes v American Airlines, 177 F. 3d 1272, 1283 (1999). 

12
  /d. at 1284 ([C]ourts may rely upon a declaration by the enacting body that its intent is to clarify the prior 

enactment.). 



                                                            3
                                                                                                                APPENDIXD 





Another factor courts may consider is whether a conflict or ambiguity existed with respect to the
interpretation of the relevant provision when the amendment was enacted. 13 The prior provision
on a Center's federal share stated only that "applicant shall provide adequate assurances that it
will contribute 50 percent or more of the proposed Center's capital and annual operating and
maintenance costs for the first three years and an increasing share for each of the last three
years." 14 The existing regulations enacted by the Department of Commerce inconsistently
elaborated on this provision, so an amendment was necessary in light of conflicting
interpretations as to sources of the Center's contributions. The opposing interpretations arose
after a series of audits of MEP Centers where the OIG disputed the sources of cost share,
claiming that contributions from partnering organizations were not allocable to the MEP Centers
because these organizations would have carried out these activities without the MEP partnership.
Despite statements by the Centers and their partners regarding the value and mutual benefit of
these partnerships, the OIG auditors still failed recognize their expenditures as valid sources of
matching funds. As explained above in Section I.B, the legislation clarifies Congress' intent for
Massachusetts MEP to include a partner's expenditures as part of its cost share when
Massachusetts MEP (and not NIST or the OIG) determines it to be reasonable and allocable to
meet the cost share requirement. 15

Where there is no explicit instruction from Congress as to whether a statute is applied
retroactively, courts are generally reluctant to allow such an effect. See Bowen v. Georgetown
University Hospital, 488 U.S. 204, 208 (1988). In its retroactivity analysis, the Supreme Court
quotes Professor Llewellyn for his recognition of the tension between retroactive application and
remedial statutes. 16 The amendment in this case has none of the characteristics that would bar
retroactive application and is a remedial statute which is to be applied retroactively to "promote
the ends of justice." In Landgrafv. US/ Film Products, 511 U.S. 244, 270 (1994) the Supreme
Court announced that "the court must ask whether the new provision attaches new legal
consequences to events completed before its enactment." 17 The amendment does not impose a
new penalty, a new liability, or create a new right of action. Concerns about the retroactive effect
are absent in cases where an amendment is deemed to clarify the relevant law. 18 Therefore the
harms in applying the amendment retroactively are inapplicable in this case and the Draft Audit
Report must take into consideration the Congressional mandate.




13
   See Liquilux Gas Corporation v. Martin Gas Sales, 979 F.2d 887, 890 (1992). 

14
   15 U.S.C. § 278k(c)(3). 

15
   America Competes Act, Pub.L. 110-69, § 3003, 121 Stat. 587 (2007) (non-Federal assets obtained from the 

applicant and the applicant's partnering organizations will be used as a funding source to meet not less than 50 

Eercent. .. "). 

 6
   Landgrafv. US! Film Products, 511 U.S. 244,264 n. 16 (1994), quoting Llewellyn, Remarks on the Theory of 

Appellate Decisions and the Rules or Canons about How Statutes are to be Construed, 3 Vand.L.Rev. 395 (1950) ( 

[a] statute imposing a new penalty or forfeiture, or a new liability or disability, or creating a new right of action will
not be construed as having a retroactive effect; [r]emedial statutes are to be liberally construed and if a retroactive
interpretation will promote the ends of justice, they should receive such construction.).
17
   See also Piamba Cortes, 177 F.3d at 1283 ("We first look to see whether the amendment effects a substantive
change in the legal standard or merely clarifies the prior law.").
18
   See !d.


                                                            4

                                                                                        APPENDIXD 





 SUBRECIPIENT COSTS

The Draft Audit Report questions $4, 167,430 in claimed project costs for two partners, the
Association for Manufacturing Excellence ("AME") and the Associated Industries of
Massachusetts ("AIM"). The auditors propose disallowance of these costs because they
determined that the partners were subrecipients, and therefore required to meet the Financial
Management Standards applicable to recipients, set forth in 15 C.F.R. § 14.21, and that neither
AME nor AIM had met these requirements. It is on this ground alone that the auditors
questioned ALL costs claimed by Massachusetts MEP for the expenditures of AME and AIM
that further the statutory mission of the MEP program.

The auditors' proposed disallowance of these costs is incorrect on the grounds that the costs are
verifiable in the recipient's records, are allowable, and were determined to be reasonable and
allocable to the MEP project by the Center in accordance with the authorizing statute.
Furthermore, the auditors' determination that AIM is a subrecipient is incorrect; AIM is a third
party in-kind contributor and should therefore be treated as such. We have set out below the
reasons we disagree with questioning of the $4,167,430 in claimed project costs for expenditures
of AME and AIM.

As noted in the Overview section, the authorizing statute requires MEP Centers to form a
network ofpartnering organizations to assist them in reaching small- and medium-sized
manufacturers, thereby furthering the impact of the Federal dollars. The statutory emphasis of
the MEP Program is on forming strategic partnerships to use existing resources and avoid
duplication of services. 19 Partnering organizations of a MEP Center can be entities in private
industry, universities, and State governments. 20 The Centers' partnerships are integrated with
existing state economic development, community college, and trade or industry association
programs. This statutory partnering model is unique in the Federal Government to the MEP
Program; it couples the partners' work with that of the MEP Centers so that the provider of
services to manufacturers is indistinguishable between the partner and the Center. The Centers'
partners have the same overall mission objectives and share common values, approaches, and
targeted market segments.

The work of the partners is integrated with the MEP Centers to increase the efficiency and
success of the MEP program. MEP partners work with the Center in reaching additional
manufacturers, providing additional services, and transferring technology to SMEs to fulfill the
core mission of the MEP Centers stated in 15 U.S.C. § 278k. The partners' work has been added
to achieve the desired synergies, and the partners' output is beyond the partners' "normal" or
"regular" operations, demonstrating a direct benefit from the partnership. Together the MEP
Center and the partner are able to coordinate and collaborate on activities that each would
conduct entirely on its own if it were not for the partnership. In this way the Center uses the
existing resources of the partner to further the impact of the Federal dollars by reaching
manufacturers it would not, on its own, have the ability to reach and to provide additional



19
     America Competes Act, P.L. 110-69, Sec. 3003(a)(3)(C).
20   /d.


                                                         5

                                                                                                          APPENDIXD 





services the Center could not otherwise offer. 21 Using a network of partners, the MEP Center
can concentrate its resources on serving clients and on technology transfer. Without such a
network, Federal resources would be diverted from providing direct services to SMEs and
instead expended on marketing and outreach to recruit clients as well as duplicating other
services need by SMEs that are available from partners. In this manner the activities of the
partners are essential to the efficiency and effectiveness of the MEP Center and its ability to
accomplish the programmatic objectives set forth in the statute and regulation. See 15 U.S.C. §
278k and 15 C.P.R. § 290.3. Massachusetts MEP selected its partners consistent with these
requirements and goals and determined that the costs were "programmatically reasonable and
allocable" and therefore properly includable as part of the Center's cost share.

The MEP Center and the partner share the same mission- to provide services to SMEs
throughout the country, or in this case particularly to SMEs in Massachusetts, that allow SMEs
to maintain or to improve their competitiveness in an increasingly global market. Such services
include education, outreach, technology, and other support. The activities that the partners
perform on behalf of the MEP Center are allowable - they are operating expenditures that would
be expended by the Center itself if it weren't for the partnership. The services provided by the
partners on behalf of the MEP Center, and the costs incurred in provided those services represent
a direct financial benefit to the MEP Center. The costs incurred by the partners are costs that do
not have to be incurred by the MEP Center, allowing the Center to then use the funds it retains
on providing services to SMEs.

The costs incurred by the partner and claimed by the Center were always related to activities
identified in the Scope of Work of the agreement executed between the partner and the Center.
The activities identified in the Scope of Work are then used to create a budget that is also
incorporated into the agreement between the partner and the Center. On a quarterly basis the
partner submits its financial support for the relevant activities to Massachusetts MEP, which then
reviews the documentation and removes any items of cost that are unallowable under the cost
principles. Massachusetts MEP then creates a report matching the line items in the budget, and
compares the expenditures to the budget and the scope of work to verify that costs are
reasonable, allocable, and allowable. 22

The MEP partnerships encompass a variety of activities that may embody all, some, or none of
the characteristics of traditional subrecipients, third-party contributors, or vendor/contractors.
Some partnerships take the form of a joint venture. Indeed, one partnership agreement may
involve the partner's receipt of a limited amount of federal funds supporting certain specified
activities, payment by the Center for expert services to the Center, the provision of services to a
manufacturer referred by the Center to the partner, and services to manufacturers who learned of
the availability of the services via the joint activities and outreach.

21
   The program regulation, 15 C.F.R. Part 290, directs Centers to leverage their resources by concentrating on
approaches that are broadly applicable to a range of organizations and regions. 15 C.F.R. § 290.3(e). The regulation
defines leverage as "the principle of developing less resource-intensive methods of delivering technologies (as when
a Center staff person has the same impact on ten firms as was formerly obtained with the resources used for one, or
when a project once done by the Center can be carried out for dozens of companies by the private sector or a state or
local organization)." /d.
22
   The Center has the authority to determine which costs are reasonable and allocable under the cost principles.
America Competes Act, P.L. 110-69. Sec. 3003.


                                                          6
                                                                                        APPENDIXD 





 Throughout the Draft Audit Report, two Massachusetts MEP partners, the Association for
 Manufacturing Excellence and the Associated fudustries of Massachusetts, are characterized as
 subrecipients as defined by the regulation. 23 The Draft Audit Report questions $4,167,430 of
 costs claimed by Massachusetts MEP for the two partners on the grounds that they "could not
 provide documentation supporting that its claims were based on actual costs incurred under the
 Massachusetts MEP subawards." The Draft Audit Report asserts that these partner expenditures
 are unallowable because they were not documented in accordance with 15 C.P.R.§ 14.21, made
 applicable to subrecipients through the flow-down provision of 15 C.P.R. § 14.5 and applicable
 to MEP Centers through incorporation by reference in the Center's cooperative agreements. The
 Draft Audit Report further asserts that the MEP Operating Plan Guidelines issued March 2005
 "require all MEP subawards to include the applicable administrative requirements and all general
 and special award conditions imposeo on the recipient." /both partners have ample
 documentation to show that actual non-federal costs were incurred in furtherance of the statutory
 objectives ofthe MEP program, as demonstrated below.

              Association for Manufacturing Excellence

The Association for Manufacturing Excellence ("AME") is a not-for-profit organization
dedicated to assisting manufacturers with continuous improvement and the pursuit of excellence.
As outlined in the Massachusetts MEP Operating Plan and the agreements reviewed and
approved by the NIST Program Officer, the Grants Officer, and legal counsel, Massachusetts
MEP and AME partnered together on planning, promoting and sponsoring the 2005 Annual
AME Conference held in Boston and co-sponsored AME's Best Plants/Industry Week
Conference. At the Conference, Massachusetts MEP organized and conducted break out
sessions on process improvement techniques, using Center staff as facilitators and providing the
necessary training materials. Process improvement techniques are the exact kind of technology
transfer and broadly applicable practices that the Center is expected to transfer to SMEs.
Attendeees of the Conference included representatives of SMEs served by both AME and
Massachusetts MEP.

Massachusetts MEP also coordinated and conducted numerous tours showcasing manufacturing
process improvement techniques currently in use in manufacturing plants in the greater Boston
area. Over 800 conference attendees and 23 manufacturing companies participated, making the
tours the most successful in recent history. 24 In addition to the AME Annual Conference and the
Best Plants/Industry Week Conference, Mr. Joe Rizzo, a Massachusetts MEP Project Manager,
served as President for the AME Northeast Regional Board, providing coordination and guidance
to other regional boards and participating in AME National Board meetings. Also participating
on the Northeast Regional Board were the Massachusetts MEP Director of Operations, Mr. Jack
Healy and a Massachusetts MEP Project Manager, Mr. Dave Hess. Both Joe Rizzo and Jack
Healy wrote articles for AME's Target Magazine, a leading trade association publication the
purpose of which is to share manufacturing and organizational progress throughout all types of
manufacturing operations. Target Magazine covers an array of topics such as "Lean Methods for


23
     15 C.F.R. § 14.2(jj).
24
     Ex. 9.


                                                  7

                                                                                              APPENDIXD 





 Creative Development" and "Training Within fudustry." Excerpts from Target Magazine are
 posted on the NIST :MEP website. 25

 Massachusetts :MEP' s Director of Operations was a member of the AME Champions Club,
 which is comprised of senior executives from large and small companies and seeks to provide
 senior management within the manufacturing sector with informative insights and events in
 critical areas to American S:MEs, including: staff training and skills development, accessibility
 to state-of-the-art manufacturing facilities, processes, and people, failure of manufacturing
 process and technology, business growth with profitability and developing and sustaining
 competitive edge. Jack Healy also served as the 2005 Annual Conference Marketing Director.

The Draft Audit Report questions all costs claimed related to AME because "the claimed costs
simply reflect a major portion of the costs A:ME incurred while performing its regular operations
- operations it appears would have been performed regardless of any subaward relationship
between AME and Massachusetts MEP." 26 This comment is inconsistent with the MEP
Program's governing statute, which directs :MEP Centers to form partnerships with associations,
like AME, and to take advantage of their existing resources. 27 Furthermore, this position simply
ignores the benefits received from the collaboration of Massachusetts :MEP and AME as
determined by Massachusetts :MEP pursuant to statutory authority granted to it. The impacts
achieved through collaboration are far greater than the impacts either organization could achieve
alone. The partnership allows AME members to access :MEP services and vice versa, allowing a
transfer of knowledge and skills through the sharing of resources that benefits both AME's
members and Massachusetts MEP's client American manufacturers without unnecessary and
wasteful duplication of services. As a result, the SME's receive the maximum possible
unduplicated benefit from both organizations.

The NIST-approved Massachusetts MEP Operating Plan for the audited period clearly outlines
the collaborative activities of Massachusetts MEP and AME and describes the specific costs that
A:ME was to incur (and did, in fact, incur) in furtherance of the Center's mission. 28 This
Operating Plan, including the description of the partnership with AME, was reviewed and
approved by the NIST Grants Officer, the Program Officer, and legal counsel prior to issuing the
award for the 2005-2006 year. Approval from the Grants Officer is additional support for the
proper inclusion of the costs incurred as part of the Center's cost share. OMB Circular A-122,
codified at 2 CFR Part 230, defines "prior approval" as:

        [S]ecuring the awarding agency's permission in advance to incur cost for those
        items that are designated as requiring prior approval by t.his part and its
        Appendices. Generally this permission will be in writing. Where an item of cost
        requiring approval is specified in the budget of an award, approval of the budget
        constitutes approval of that cost.



25
   See, e.g. Tonkin, Lea A.P., NORTHROP GRUMMAN NEWPORT NEWS: REACHING OUT TO SUPPLIERS, Vol. 22:1 

(2006), available at: www .mep.nist.gov/documents/pdf/supply-chain-management/NGNN_story. pdf. 

26
   Draft Audit Report at 4. 

27
   America Competes Act, P.L. 110-69, Sec. 3003, 121 Stat. 587 (2007). See also 15 U.S.C. § 278k. 

28
   Ex. 4. 



                                                   8

                                                                                                           APPENDIXD 





2 CFR § 230.25. The very cost items included in AME's budget, reviewed and specifically
approved by the authorized NIST officals are therefore incorrectly questioned in the Draft Audit
Report.

The Draft Audit Report questioned AME' s expenditures claimed as cost share on the grounds
that "AME's practice does not comply with 15 CFR, Sec. 14.21 because it does not (1)
accurately disclose actual costs incurred under the subaward, (2) compare actual outlays with
budgeted amounts, and (3) rely on written procedures for determining allowability of costs."

                  Accurate Disclosure of Actual Costs Incurred

The Agreement between Massachusetts MEP and AME, which was approved by authorized
NIST officals includes a detailed Scope of Work (Schedule A) and a detailed description of
Financial and Programmatic Monitoring (Schedule B)?9 Schedule B requires AME to submit to
Massachusetts MEP the following documentation:

         (1) Financial documentation including validation of payroll costs associated with the
activities and other in-kind services not otherwise recorded;

         (2) Selected portions of the general ledger as related to the activities described herein;
and
         (3) Invoices, purchase orders, or related documentation verifying incurred costs.

The documentation submitted by AME to Massachusetts MEP follows detailed procedures to
allow Massachusetts MEP to determine that the costs are reasonable, allocable, and allowable.
Massachusetts MEP also conducts periodic site visits to ensure that records are being kept
pursuant to the Agreement. Massachusetts MEP verifies the costs claimed by AME by
reviewing their accounting records and compares these reported expenditures against the original
proposed budget. Massachusetts MEP is the recipient and is ultimately fmancially responsible
for ensuring the allowability of costs. 30 This procedure, to which the parties agreed to in writing,
and the results of which were made available to the auditors, is sufficient to show that the non­
federal dollars expended by AME were expended to further the MEP statutory mission. It is the
parties to the Agreement who are in the best position to know what they intended by the
Agreement. See National Urban League, Inc., United States Department of Health and Human
Services Departmental Appeals Board, No. 294 (April30, 1982) (DAB adopted Grantee's
interpretation as reasonable, and gave it more weight than the Agency's interpretation since the
Grantee was a party to the agreement.). As noted above, Massachusetts MEP is responsible for
determining whether the costs arc reasonable and allocable? 1 During site visits, Massachusetts
MEP verified that the claimed costs were actually incurred, that the activities benefit AME and
the Massachusetts MEP Center, and are in furtherance of the MEP mission. !d.



29
   A copy of the Agreement is attached at Ex. 8. 

30
   15 C.F.R. § 14.2(ft) "Recipient means an organization receiving financial assistance directly from the DoC to 

carry out a project or program." 15 C.F.R. § 14.2(jj) "Subrecipient means the legal entity to which a subaward is 

made and which is accountable to the recipient for the use of the funds provided." 

31
   America Competes Act, P.L. 110-69, Sec. 3003, 131 Stat. 587 (2007). 



                                                          9

                                                                                                              APPENDIXD 





AME provided Massachusetts MEP with: (1) summary financial reports that disclosed the MEP
supported activities; (2) detailed financial reports and general ledgers that disclosed each
expenditure by name, date, amount and description; and (3) vendor invoices and other source
documentation to support the costs contributed to Massachusetts MEP. This documentation was
provided to the auditors during their field visits to the Massachusetts MEP office. Additional
reports and supporting documentation were provided during and following the AME and AIM
field visits conducted by the auditors. From the documentation provided the auditors selected
140 invoices for a more in depth verification of costs. 32 However, at the Audit Exit Conference,
the auditors stated that they never reviewed the invoices or used them in making any findings.
We request that the auditors review their records to determine whether they actually reviewed the
invoices. These invoices are critical evidence as to the cost share of AME.

                   Comparison of Actual Outlays with Budgeted Amounts

AME and Massachusetts MEP met and reviewed together the annual operating budget,
identifying the specific cost categories allocable to the activities under the agreement and
incorporated in the Massachusetts MEP Operating Plan. 33 The monthly and quarterly financial
reports provided by AME clearly show the actual expenditures against the budget by line item
for those costs identified in the Center's Operating Plan and the Agreement. 34

                   Written Procedures for Determining Allowability

Massachusetts MEP makes its determination of allocability using its written procedures that
apply applicable federal cost principles. Massachusetts MEP worked closely with AME, through
the steps described above, to ensure that the costs claimed by Massachusetts MEP were
reasonable, allocable, and allowable, and derived from non-federal sources. The Agreement, in
Schedule B, clearly required AME, under 15 C.F.R. Part 14, to provide documentation sufficient
for Massachusetts MEP to determine the allowability of costs pursuant to its own written
procedures and the applicable cost principles. This procedure complies with the authorizing
statute, which prevails over the general administrative provisions in the event of a conflict. See
United States v. Coates, 526 F. Supp. 248 (E.D.Cal Nov. 19, 1981), aff'd in part, reversed in
part, 692 F.2d 629 (9th Cir. Nov. 19, 1982). The authorizing statute states the following:

                 In meeting the 50 percent requirement, it is anticipated that a Center will
         enter into agreements with other entities such as private industry, universities, and
         State governments to accomplish programmatic objectives and access new and
         existing resources that will further the impact on the Federal investment. ...All
         non-federal costs, contributed by such entities and determined by a Center as
         programmatically reasonable and allocable are includable as a portion of the
         Center's contribution.

Emphasis added; P.L. 110-69, Sec. 3003(a)(3)(C). The statute does not require that partners be
subrecipients, nor does it require that partners abide by the Financial Management Standards in

32
   A list of the invoices selected, as well as copies of the actual invoices will be provided upon request.
33
   Ex. 4
34
   Ex. 10


                                                           10 

                                                                                          APPENDIXD 





 15 CFR Part 14. To the contrary, the statute explicitly and unambiguously places the
 responsibility of determining reasonableness and allocability on the Centers themselves. 35

Massachusetts MEP conducted periodic site visits with AME to review fmancial records,
supporting documentation, and provide guidance for complying with applicable federal
guidelines. AME followed generally accepted accounting principles ("GAAP") and undergoes
an independent audit process annually. Consistent with this process, Massachusetts MEP
determined that the expenditures of AME on behalf of S.MEs were "programmatically reasonable
and allocable" and were therefore "includable as a portion of the Center's contribution."36

                     Subrecipient Program Income

The Draft Audit Report also states a concern over program income earned by AME but not
reported to NIST by Massachusetts MEP. Massachusetts MEP did not report program income
earned by AME because it was used by AME to fund Massachusetts MEP activities. AME
generated program income consisting of conference fees, subscriptions, and other non-federal
revenue generated by AME from its Center-supported activities. Any program income earned by
AME from its Center-supported activities was likewise spent on Center activities. AME tracked
this income in its accounting system and reported it to Massachusetts MEP throughout the year
in its financial reports to Massachusetts MEP, delineating AME's revenue and expenses by
activlty.37

The auditors reported that AME earned ~ in total revenue from the subaward cost
categories. Subtracting revenues that were not generated by Center activities and were therefore
not program income                results in total program income for AME
Program income                 minus allowable expenses (-            ) equals          in
program income                 auditors state should have been reported. However,        funds
were expended by AME in the following award period, to put on the AME annual conference in
the second half of the calendar year of 2006. Planning for the annual conference was underway           I­
and Massachsuetts MEP was aware that the program income funds in the 2006 program year                  ;


would be spent in the following period on the conference, that the conference furthered the
Center's mission and that conference costs were reasonable, allocable, and allowable.

             Associated Industries ofMassachusetts

Associated Industries of Massachusetts (AIM) is a nonprofit, membership driven organization 

the mission of which is to promote the well-being of its members, including SMEs, and their 

employees and the prosperity of the Commonwealth of Massachusetts by: ( 1) improving the 

economic climate of Massachusetts; (2) proactively advocating fair and equitable public policy; 

and (3) providing relevant, reliable information and excellent services. AIM provides human­

resource management, employment law, employee training and education, and process 

improvement seminars and training to Massachusetts manufacturers. AIM contributes to the 

strategic objectives of the Massachusetts MEP by working on behalf of businesses in 


35   !d. 

36
     America Competes Act,P.L. I 10·69, Sec. 3003, 121 Stat. 587 (2007).

37
     Samples of these reports are included at Ex. 6. 



                                                          11
                                                                                                           APPENDIXD 





Massachusetts and by offering services specifically designed to help improve processes while
increasing the competitiveness of small and medium sized manufacturers in Massachusetts.

As outlined in the NIST-approved Massachusetts MEP Operating Plan, "[t]he cost share
contributed by AIM to Mass MEP is a result of the cost of collaborative efforts to provide Lean
training and Lean certification to manufacturers and the co-hosting of a series of informational
roundtables and workshops that address issues that are pertinent to Massachusetts
manufacturers. " 38

The Draft Audit Report questions "whether Massachusetts MEP's relationship with AIM was a
valid subaward. " 39 The relationship between Massachusetts MEP and AIM is not that of
recipient and subrecipient, but is instead that of grantee and a third-party, in-kind contributor.
The AIM CPO is correct in that AIM is not a subrecipient and the agreement between the two
entities is properly characterized as a Memorandum of Understanding. There is no subaward of
financial assistance made by Massachusetts MEP to AIM and AIM receives no other federal
funds by which AIM could become a subrecipient. As the auditors correctly noted, no
cooperative agreement funds are transferred to AIM. The only funds that AIM received from
Massachusetts MEP were Commonwealth funds. Therefore, there is no subaward made. 40
Without federal funds or property, there is no nexus to require AIM to meet the financial
management standards of 15 C.P.R. § 14.21. Instead, AIM is a third party, in-kind contributor
and meets the requirements of 15 C.P.R. § 14.23. Under 15 C.P.R. § 14.23, cost sharing
contributions must meet the following criteria:

             1. 	 verifiable from the recipient's records
             2. 	 not included as contributions for any other federally assisted project or program
             3. 	 necessary and reasonable for proper and efficient accomplishment of project or
                  program objectives
             4. 	 allowable under the applicable cost principles41
             5. 	 not paid by the Federal government under another award
             6. 	 provided for in the approved budget
             7. 	 conform to other provisions of [Part 14], as applicable.

Massachusetts MEP's documentation of AIM's cost contributions meet these criteria. The cost
contributions from AIM are verifiable in Massachusetts MEP's records, are not counted toward
any other federal grant, and are necessary and reasonable for proper and efficient
accomplishment of Massachusetts MEP objectives given the nature of AIM's activities and the
partnership between Massachusetts MEP and AIM. Additionally, Massachusetts MEP reviewed
the reports of expenditures from AIM and eliminated from the cost contribution any expenditures
that are unallowable under the cost principles. AIM's expends no Federal dollars and its claimed


38
   Ex. 4
39
   Draft Audit Report at 5.
40
   Subaward is defined in 15 C.P.R. § 14.2(ii) as "an award of financial assistance in the form of money, or property
in lieu of money, made under an award by a recipient to an eligible subrecipient or by a subrecipient to a lower tier
subrecipient." An award is cash that originates from the federal government. See 15 C.F.R. § 14.2(f).
41
   "Allowable under the cost principles" means that the cost item must be permissible as a charge to the federal
award, not that the third party providing the cost contribution has to comply with the cost principles.


                                                         12 

                                                                                                         APPENDIXD 





 expenditures were provided for in the budgets submitted by Massachusetts :MEP in its Operating
 Plan for 2005-2006.

Massachusetts MEP identifies the AIM operating costs that support activities that benefit all of
the AIM clients, not just the manufacturers. AIM does not specifically track its costs related
directly and only to its activities on behalf of manufacturers. Massachusetts MEP and .ATh1
therefore agreed to an allocation method of costs based upon the percentage of manufacturing
members.42 The Operating Plan, approved by authorized NIST officials, described this
allocation of costs contributed by AIM: "AIM contributes . % of its operating expenses, which
corresponds to the percentage of manufacturing companies in its membership, to Massachusetts
MEP as cost share.'"'3 The method of allocation received approval from the authorized NIST
Program Officer, Grants Officer, and legal counsel.

Quarterly, AIM provides Massachusetts MEP with its Consolidated Statement of Financial
Position showing its actual expenditures to budget expenditures. Annually, AIM provided
Massachusetts MEP with a copy of its annual operating budget and independent audit report. 44
In addition, Massachusetts MEP conducted a yearly site visit with the chief financial officer of
AIM to review documentation to support the expenditures reported by AIM. Massachusetts
MEP officials discussed AIM"'s federal funding requirements and the use of AIM contributed
costs as cost share, discussed percentage of manufacturing vs. non-manufacturing members,
eliminated any lobbying costs and other unallowable expenses, reviewed and verified payroll
registers and reports, discussed accounting policies and procedures, and reviewed audit
requirements and audit reports. As a result, the AIM" contribution clearly meets the statutory
requirement for allowable cost share.

CONTRACT COSTS

 The OIG questions project costs of $908,823 claimed by Massachusetts MEP as unallocable on
 the grounds that the costs claimed were expended for contracts which were awarded to
 Massachusetts MEP as procurement contracts and not for .MEP activities. The auditors stated:
 "[a]s procurement contracts, not awards of financial assistance, the services provided by
Massachusetts MEP under these agreements were for the direct use and benefit of the procuring
entities, and not for the benefit of accomplishing the objectives of the NIST cooperative
 agreement.'.45 In support of this conclusion the auditors assert that costs incurred under the
contracts must be allocated to the contracts, not the MEP cooperative agreement. 46 The auditors'
proposed disallowance of $908,823 is incorrect because the costs incurred for these projects were
determined by the Center, pursuant to its statutory authority, to be reasonable and allocable to the
.MEP program as activities that improve the competitiveness of SMEs in the global market
through the adaptation and transfer of technology to SMEs.



42
   The Center has the authority to detennine reasonableness and allocability under the statute. America Competes 

Act, P.L. 110-69, Sec. 3003, 121 Stat. 587 (2007).

43
   Ex. 4 at 19. 

44
   Ex. 17 

45
   See Draft Audit Report at 6. 

46   /d. 



                                                        13 

                                                                                           APPENDIXD 





 The Department of Labor, Employment and Training Administration has partnered with NIST
 MEP on at least one other initiative (the WIRED program) and recognizes the critical need for
 skills training for American manufacturers so that American manufacturing can remain
 competitive in the global market. Furthennore, NIST MEP remains the main point of contact for
 the Interagency Network of Enterprise Assistance Providers ("INEAP''), in which the
 Department of Defense and the Defense Logistics Agency are directly involved. According to
 the NIST MEP website, .current discussions of the !NEAP have focused on joint service delivery
 programs, similar to the Supply Chain and MOST initiatives. Other MEP Centers also work
 closely with Department of Defense contractors on supply chain initiatives.47 NIST's support
 and encouragement of these partnerships and programs is evidence that such activities and
 initiatives are well within the MEP mission and are therefore Massachusettg :MEP's
 deteqni.nation that the cost were allocable to the MEP Center is reasonable.

Please note that the contracts were awarded to the Massachusetts MEP Center because of its
unique qualifications to provide the services required under the award. The Center has the
authority to determine which costs are reasonable and allocable to the MEP award.48 NIST
supports these types of activities and encourages Centers and their clients to compete for Federal
contracts. In fact, to preserve their eligibility for such dollars the MEP statute contains the
following provision:

        In addition to such sums as may be authorized and appropriated to the Secretary
        and Director to operate the Centers program, the Secretary and Director also may
        accept funds from other Federal departments and agencies for the purpose of
        providing Federal funds to support Centers. Any Center which is supported with
        funds which originally came from other Federal departments and agencies shall
        be selected and operated according to the provisions of this section.

A cost is allocable to an award if it: (1) is incurred specifically for the award; (2) benefits the
award and other work and can be distributed in reasonable proportion to the benefits received; or
(3) is necessary to the overall operation of the organization, although a direct relationship to any
particular cost objective cannot be shown. 2 C.F.R. Part 230, App. A(4). The costs of the
contracts are allocable to the Massachusetts 1\llEP award because the contracts and the work
performed thereunder are in furtherance of the Massachusetts MEP's mission. MEP incurred the
costs associated with the contracts not because of the contracts themselves but because the
contractors were like many other clients who contract with Massachusetts Iv!EP for services.
These fees for services performed allow the Center to fulfill its mission by assisting small and
medium sized manufacturers to improve their competitiveness.

        New Engl.and Manufacturing Supply Chain Initiative

                                              received a contract under a limited competitive
   process      the Department of Defense's Defense Logistics Agency, an agency within the
United States Department of Defense to ultimately improve defense acquisition of resources and

47
   See Client Success Stories, Trek Connect, Inc., New Jersey MEP, available at:
http://blue.nist. gov/ss/2481488B690F30B685256F95005BEA72 (September 15, 2008).
48
   America Competes Act, P.L. 110-69, Sec. 3003, 121 Stat. 587 (2007).


                                                    14 

                                                                                         APPENDIXD 





materials with the goal of obtaining parts and materials domestically in the New England area,
utilizing an existing Supply Chain of SMEs. The multi-phase program was known as the Rapid
Mobilization of Manufacturing Sources. -        then awarded a subcontract to MEP MSI to assist
in on-the-ground operations and investigations of the capability of small and medium sized
manufacturers. In order to reach more small and medium sized manufacturers in the six-state
area, MEP MSI in turn contracted with individual MEP Centers, including Massachusetts MEP,
to provide outreach, education, and other services under the contract.

Under the Vendor Agreement between .MEP MSI and Massachusetts MEP. Massachusetts MEP
was responsible for conducting outreach and education on the Supply Chain and SupplyPoint
initiatives with their small and medium-sized manufacturing clients and to assess the capabilities
of their clients to participate in Defense contracting and subcontracting processes. The ultimate
goal was to inform small and medium sized manufacturers throughout Massachusetts about
opportunities in defense manufacturing and to get them involved in defense procurements. In
order to do so, Massachusetts MEP staff conducted face-to-face meetings and on-site
assessments with their clients to ascertain capacities and capabilities of those manufacturers.
Assisting small and medium size manufacturers in Massachusetts to be more competitive for
DoD and DLA contracts is clearly within the Massachusetts MEP's statutory mission.
Furthermore, this program involves the direct transfer of technology and process improvements
described in the Programmatic Objectives at 15 C.P.R.§ 290.3(b). The goals and activities of
Lhe Supply Chain Initiative were described in the Massachusetts MEP 2005 Operating Plan,
subsequently approved by the authorized NIST Program Officer, Grants Officer, and legal
counsel prior to the release of funds for the 2005-2006 operating year.

Finding these costs unallocable to the Massachusetts MEP program is inconsistent with statutory
authority and requirements with regard to assisting small and medium sized manufacturers in
Massachusetts by increasing their competitiveness. Such a finding also is inconsistent with the
terms of the MEP statute which give the Center the authority to determine which costs are
                           49
reasonable and allocable. Furthermore, pursuit of supply chain initiatives is not unique to
Massachusetts MEP and is supported by NIST, as evident from their "Supply Chain"
Community of Practice on the website maintained by NIST for the MEP network. This forum
allows MEP Centers to share their experiences and opportunities for involvement and
improvement of the supply chain on behalf of their small and medium sized manufacturer client.
Such activities are clearly allocable to the Massachusetts :MEP program.

           Machine Operators Skills Training ("MOST") Grant

In July of 2005, the Maine Department of Economic and Community Development ("DECO")
received a financial assistance award from the Department of Labor, Employment and Training
Administration to provide job opportunities for small and medium-sized manufacturers by
increasing their competitiveness (thereby increasing their ability to win contracts and bring in
revenue) and to provide training for machinists to allow them to become Computer-Numerically
Controlled ("CNC") Operators, Programmers, and Machinists, of which there is a significant
shortage of qualified and trained workers in the United States.
                                                                                                       j•
                                                                                                       I

49
     America Competes Act, P.L. 1 10-69, Sec. 3003, 121 Stat. 587 (2007).


                                                          15
                                                                                                         APPENDIXD 





To carry out this project, Maine DECD awarded a grant to Maine MEP to pilot the "innovating
CNC training program with advanced machine shops [with] six New England states". It was             5°
agreed that Massachusetts MEP would assist Maine MEP in accomplishing the objectives of the
grant by providing the following services:

     •	  Designate staff member to liaison with the project manager.
     •	  Assist in identifying small and medium sized manufacturers to participate in the program
     •	  Assist in working with local Career Centers to recruit potential machine operator trainees.
     •	  Assist in identifying community colleges or other institutions that can provide training
         facilities.
     • 	 Assist the project manager in other activities that are deemed necessary for the success of
         the program. 5 1

The activities required of Massachusetts MEP in order to perform the services under the Scope
of Work are well within the scope of and complementary to the objectives of the MEP program,
stated in 15 C.P.R.§ 290.3(b), Program Objective, and the enabling statute, 15 U.S.C. § 278k.
As stated in the regulation, the objective of the MEP program is "to enhance productivity and
technological performance in United States manufacturing." This is the same objective as the
MOST program. The MOST program aims to enhance productivity through training machine
operators to be CNC operators, critical to enable SMEs to utilize recent improvements in
technology, as more and more machines are run by computers, knowledge in computer
technology becomes more important. NIST MEP demonstrated approval of the MEP partnership
with the MOST program by awarding Mr. Jack Healy, Director of Operations for Massachusetts
MEP, the Innovator of the Year Award at the 2008 National MEP Conference held in Orlando,
Florida, specifically for Massachusetts MEP's participation in the MOST Program.

Guidance on determining whether the relationship is that of recipient-subrecipient or recipient­
vendor can be found in OMB Circular A-133, § _.210:

                 (b) Federal award. Characteristics indicative of a Federal award received
          by a subrecipient are when the organization:
                         (1) Determines who is eligible to receive what Federal financial
                 assistance;
                         (2) Has its performance measured against whether the objectives of
                 the Federal program are met;
                         (3) Has responsibility for programmatic decision making;
                         (4) Has responsibility for adherence to applicable Federal program
                 compliance requirements; and



50
   The grant was given to Maine MEP from the Maine Department of Economic and Community Development "to
pilot a new CNC training paradigm with advanced machine shops". Maine DECD was awarded the grant after the
Department of Labor reported "a national shortage of skilled Computer Numerical Controlled (CNC) operators who
are critical to the survival of advanced machine shops especially in the six-state New England region." A copy of
the Grant Agreement between Maine DECD and Maine MEP is attached at Ex. 23.
51
   A copy of the Vendor Agreement between Maine MEP and Massachusetts MEP, including Schedule A, Scope of
Work, is attached to this report at Ex. 22.


                                                       16 

                                                                                                          APPENDIXD 





                          (5) Uses the federal funds to carry out a program of the
                  organization as compared to providing goods or services for a program of
                  the pass-through entity.

               (c) Payment for goods and services. Characteristics indicative of a
         payment for goods and services received by a vendor are when the organization:
                       ( 1) Provides the goods and services within normal business
               operations;
                       (2) Provides similar goods or services to many different
               purchasers;
                       (3) Operates in a competitive environment;
                       (4) Provides goods or services that are ancillary to the operation of
               the Federal program; and
                       (5) Is not subject to compliance requirements of the Federal
               program.

Clearly under this guidance Massachusetts MEP is a vendor to Maine MEP. The vendor
agreement with Maine MEP does not require Massachusetts MEP to conduct any activities that
are outside of its statutory mission or the current scope of work under the Massachusetts MEP
cooperative agreement, nor does it require Massachusetts MEP to conduct any additional
activities. It is providing services that it provides on a regular basis under its MEP cooperative
agreement and they are within its "normal business operations" and such services are "ancillary
to the operation of the Federal program." The Federal program, for which the Maine Department
of Economic and Community Development is responsible, is the pilot training program.
Massachusetts MEP' s responsibility under the vendor agreement is to assist in the identification
of participants and facilities for the program. Furthermore, nothing in the Scope of Work gives
Massachusetts MEP any decision making responsibilities, or performance of the actual Federal
program, nor is its performance evaluated against the objectives of the Federal program.
Consequently, payments to Massachusetts MEP from Maine MEP for the goods and services
received are not Federal awards. 52

The work performed under the vendor agreement is not outside the normal operations of
Massachusetts MEP, but consists of information sharing with Maine MEP. Furthermore,
questioning costs on the grounds that 15 C.P.R. § 14.23(a)(5) prohibits costs "paid by the federal
government under another award, except where authorized by federal statute to be used for cost
sharing or matching." 53 The Draft Audit Report continues, "[t]he funds used to compensate
Massachusetts MEP for the services under both subcontracts originated with the federal
government."54 This is an inaccurate characterization of the funds received by Massachusetts
MEP under the vendor agreement. OMB Circular A-133 clearly states that vendor payments
should not be considered Federal awards, yet this is exactly the incorrect conclusion reached by



52
   OMB Circular A-133, § _.2IO(a) (An auditee may be a recipient, a subrecipient, and a vendor. Federal awards 

expended as a recipient or a subrecipient would be subject to audit under this part. The payments received for goods 

or services provided as a vendor would not be considered Federal awards.)(emphasis added). 

53
   IG Draft Audit Report at 8. 

54 /d.




                                                         17 

                                                                                                       APPENDIXD 





 the auditors. For this and the reasons stated above, the -                  claimed under the Vendor
 Agreement with Maine IvffiP is allowable.

QUESTIONED CONTRACTUAL AND OTHER DIRECT COSTS

            Pre-Award Costs

Massachusetts MEP does not challenge the auditor's questioning of$~ in contractual costs
for consultant services invoiced prior to the July 1, 2005 start date of the cooperative agreement.

            Registration Fees

The auditors questioned        s:lllll
                                 in registration fees paid for eight participants (four from New
Hampshire and four from Maine) to attend the Association of Manufacturing Excellence annual
conference. However, the costs that the auditors questioned were not actuaJly charged to
Massachusetts MEP but rather to the various centers where the employees worked. This can be
determined by looking at the cost codes next to the amounts which are highlighted. The
documents showing the charges relied upon by the auditors are a balance sheet entry, and do not
reflect actual costs incurred. The costs for the New Hampshire participants were properly
charged to New Hampshire and the costs for the Maine participants were properly charged to
Maine and were never charged as costs incurred to the Massachusetts MEP Program.55

PROGRAM INCOME

NIST MEP officials have caused considerable confusion over the /.ears regarding the treatment
of program income and excess program income in its regulation, 5 terms and conditions,
presentations to the recipients, and in discussions over the years. At one time there was a special
task group formed by NIST with the participation of several MEP Centers to address the
treatment of program income and excess program income, but it was disbanded before the work
was completed. Program income is defined as "gross income earned by the recipient that is
directly generated by a supported activity or earned as a result of the award,'' 57 including fees for
services performed, use of rental or real propert~ acquired under federally-funded projects, and
sale of commodities fabricated under an award. 8 As the auditors noted, most program income
generated under the Massachusetts .MEP award results from the fees paid by private
manufacturing firms and individuals for services or for fees paid by conference participants or
sponsors. These fees are not paid with federal dollars. The federal government has a partial
interest in the program income because the federal dollars supported the costs incurred in
conducting the activities under the cooperative agreement that generated the program income.
The "recipient organization must account for all program income related to projects financed in
whole or in part with federal funds."59 The recipient is directed to retain the program income and
to use it in one of three ways, add it to the project funds, use it to finance the non-federal share,

55
   Ex. 25.
56
   The program regulation defined two types of program income as "cost share." IS C.F.R. § 290.4(c)(2) and (3).
57
   15 C.F.R. §14.2(aa).
58/d. 

59   15 C.F.R. § 14.24(a). 



                                                        18 

                                                                                                         APPENDIXD 





 or deduct it from the total project costs. The grantor agency chooses the treatment of program
 income under its awards and NIST chose the alternative under 15 C.F.R.§14.24(b)(2), which
 provides that program income may be applied to the non-federal cost share.

It is well-established in law, that program income does not automatically acquire a federal
character and is not required to be deposited in the Treasury as miscellaneous receipts. 60 Under
a cost-share grant, the federal government's interest is limited to the extent of its participation.
To the extent that federal dollars paid the costs of the activities that generated the program
income, it may direct the recipient as to how it may expend that income. Many federal agencies
that anticipate that a cost-share grant program will generate program income, address it
specifically in their program regulations. In those regulations, federal agencies clearly
acknowledge that the federal government may only direct the recipient on the use of the program
income to the extent of the federal share, i.e., one-third of the income under an MEP cooperative
agreement. 61 Neither NIST nor the Department of Commerce have issued such a regulation
regarding program income produced under cost share grants, despite the fact that MEP clearly
anticipated fees for services to be charged by recipients (as do other programs at Commerce,
such as the Minority Business Development Administration). For this reason, one must look to
other federal agency regulations for guidance. 62

During 2006, NIST was implementing changes to its operating plan guidelines and general terms
arid conditions with respect to: the calculation of program income, undisbursed program income,
the impact of state and other funding on the calculation of program income, the restrictions of all
or a portion of program income, the amount that could or should be carried forward by a center,
and the process and procedures for approval of program income. The MEP General Terms and
Conditions were not actually incorporated into the 2006 cooperative agreements until February
2006. 63 Once the procedures were clearly established, Massachusetts MEP closely followed the
approval process and the calculations arid restrictions placed upon program income as evidenced
by the clear and complete disclosure of 2006 results contained in the approved operating plan for
the year beginning July 2008. Having disclosed the undisbursed program income in the
operation plans approved by NIST, reporting it in the SF 269s, and ultimately getting Grants
Officer written approval to carry over the excess program income, this finding should be
removed.

Excess program income results if the recipient has generated more program income than is
needed to match the federal dollars or if the federal agency has stipulated any limits upon what

60
   B-191420 (August 24, 1978), p.4 and 44 Comp. Gen. 87,88 (1964) which established that income generated from 

federal funds was not subject to section 3617 of the Revised Statutes, 31 U.S.C. § 4R4 (1970). 

61
   This interpretation has been adopted by the Department of Justice, Financial Guide, Office of Justice Programs, 

U.S. Department of Justice, Chapter 4, available at
http://www.ojp.usdoj.gov/finguide06/part3/part3chap4/part3chap4.htm (Where a program is only partly funded by
Federal funds, the Federal portion of program income must be accounted for up to the same ratio of Federal
participation as funded in the project or program.), the Department of Housing and Urban Development, 24 C.F.R. §
570.489(e)(l) (When income is generated by an activity that is only partially assisted with CDBG funds, the income
shaH be prorated to reflect the percentage of CDBG funds used.), and the Department of the Interior, Office of
Surface Mining, Federal Assistance Manual, Office of Surface Mining, Department of the Interior, available at
http://www. osmre. gov/fam/defin.htm.
62 /d.
63
     Ex. 6.


                                                        19 

                                                                                                              APPENDIXD 





the grantee may apply under one of the methods. NlST attempted at one point to establish a limit
of25%,64 but then withdrew the requirements. 65 The regulation acknowledges this may happen
 under 15 C.F.R. § 14.24(c) where it provides that any excess program income be used to deduct
the total project costs. The recipient then deducts the excess program income from the total costs
upon "which the Federal share of costs is based" under 15 C.P.R. § 14.24(3). MEP Centers that
generated more program income than was needed to meet the two-thirds cost share are only
obligated to deduct one-third of the excess program income to reduce the total award costs,
 because the federal share of the program expenses and income is one-third under the tenns of the
.MEP Cooperative Agreement. Only one-third excess program income at the end of each award
year is required to be expended and may only be expended as directed by NIST under 15 CFR §
 14.24(c). The remaining two-thirds of the excess program income is unencumbered by the grant
requirements. This was clearly set forth in a decision by the Department of Health and Human
Services Departmental Appeals Board which states that the recipient can expend excess program
income even on expenses that are "not otherwise permissible as charges to federal funds."
Anchorage Neighborhood Health Center, U.S., HHS DAB No. 561 (August 6, 1984). If used to
add activities to the award, the program income funded activity need only further the program
purpose, and is not subject to the cost principles.

 As stated in the Draft Audit Report, program income, consisting entirely of project fees, was
-            · which was greater than the amount anticipated by Massachusetts MEP in its
operating plan budget. The actual program income was significantly greater than budgeted
program income due to the success of Massachusetts :MEP's efforts. Accordingly, the Center
generated undisbursedJrogram income as reported on the financial status report for the period
ending June 30, 2006. The undisbursed program income is questioned because it was carried
forward without prior approval from the Grants Officer as required by May 2006 amendment to
the cooperative agreement. However, approval for the carry forward has since been granted.
The Massachusetts MEP operating plan for the period beginning July 1, 2008 reported this
undisbursed program income, requested and was granted approval for carry-forward. The 2008­
2009 Operating Plan, on page 8, reports the total undisbursed program income for the years
ending in 2006, 2007 and 2008 and identifies that . of that net income is "restricted". The
''restricted" amount adds to ~ and ties to the number identified on page 32 in the budget
and page 33 in the budget narrative. NIST MEP identified and approved ~ of carry­
forward program income in amendment 11, special award condition 9 for the 2008-2009
program year. We have attached the revised SF 269 for 2006 and the apJ?roved Operating Plan
for 2008 to demonstrate approval of the carry-forward program income.

CONCLUSION

Massachusetts MEP has a strong MEP program with several strong partners. Massachusetts
MEP continues to provide important services to its clients throughout Massachusetts. The
64
   The 2006 MEP General Term and Condition No. _ initially imposed a 25% limitation on program income, but
was subsequently repealed by NIST in May 2006. Ex. 5, 7, 26.
65
   Ex. 5.
66
   It should be mentioned for accuracy that the undisbursed program income for the period in question was
subsequently re-calculated to reflect final adjustments to the Center's financial reports, resulting in a reduction to

~Ex. 27.·

                                                           20 

                                                                                              APPENDIXD 





annual report of the client impact surveys performed by a contractor on behalf of NIST reported
for Fiscal Year 2006 that

        MEP focuses on results and outcomes. It maintains its accountability to its clients,
        investors, and stakeholders by asking the people with the best information - its
        clients - about the impacts of its work. MEP delivers measurable results to its
        clients and its investors. Each year, MEP makes it possible for thousands of
        companies to solve problems, to increase productivity, to achieve higher profits,
        to find new markets, to adopt technology, and to create and retain thousands of
        jobs. In FY 2006, MEP clients reported that these services led to:

                    • 	 Boosting productivity among nearly eight in ten (78.8 percent)
                        MEP clients
                    • 	 Creating and retaining over 52,000 jobs
                    • 	 Increasing and retaining sales of over $6.8 billion
                    • 	 Modernizing their companies by leveraging over $1.7 billion in
                        new private sector investments
                    • 	 Saving more than $1.1 billion in costs
                    • 	 Improving the competitiveness for 82 percent of the respondents. 68

Massachusetts MEP has consistently followed the direction of NIST and the applicable statutes
and regulations in carrying out its MEP program. The auditors' insistence that there are not valid
subrecipient costs on the basis of the financial management standards is plainly inaccurate. The
partners, AME and AIM opened up their books not just to Massachusetts MEP but also to the
auditors. Massachusetts MEP uses both summary financial reports and underlying source
documentation to verify that the partner costs it claims are reasonable, allocable and allowable to
the MEP program. This documentation was made available to the auditors during their
fieldwork at Massachusetts MEP and on location with the partners. In addition, the agreements
executed with the partners include budgets and scopes of work, and flow-down provision that
requires the partner to make its books and records available for inspection and allow
Massachusetts MEP to conduct an annual site visit. Massachusetts MEP works very closely with
its partners to ensure that financial recordkeeping requirements are understood and can be met.

The auditors' questioning of the validity of the relationship between Massachusetts MEP and its
partners, AME and AIM, is likewise inaccurate. While some partnerships exhibit several
characteristics of subrecipients, others are more akin to third-party in-kind contributors, vendors,
and joint ventures. Often a partnership contains many of these characteristics. Furthermore, the
plain language of the MEP statute demonstrates Congressional intent for the MEP Centers to
create a network of MEP Centers, to form partnerships with associations, universities, and other
non-profit organizations, and for the costs incurred by the partners to be counted in the cost
contribution of the MEP Center, so long as the Center determines that those costs are reasonable
and allocable. 69 We respectfully disagree with the auditors' findings and questioned costs for the

68
   U.S. Department of Commerce, National Institute of Standards and Technology, THE MANUFACTURING
EXTENSION PARTNERSHIP: DELIVERING MEASURABLE RESULTS TO ITS CLIENTS, Fiscal Year 2006 (January 2008),
available at http://www.mep.nist.gov/impacts/delivering-measurable-results.htm (September 15, 2008).
69
   America Competes Act, P.L. 110-69, Sec. 3003, 121 Stat. 587 (2007).


                                                  21 

                                                                                     APPENDIXD




reasons stated herein. To support our arguments, we have enclosed with this Response the
necessary supporting documentation relied upon.




                                             22 

